<html>
<title> - AMERICA THE BEAUTIFUL: PROMOTING OUR NATIONAL PARKS AS TRAVEL DESTINATIONS</title>
<body><pre>[Senate Hearing 111-924]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-924
 
     AMERICA THE BEAUTIFUL: PROMOTING OUR NATIONAL PARKS AS TRAVEL 
                              DESTINATIONS

=======================================================================

                                HEARING

                               before the

   SUBCOMMITTEE ON COMPETITIVENESS, INNOVATION, AND EXPORT PROMOTION

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 27, 2010

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                  U.S. GOVERNMENT PRINTING OFFICE
65-327                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dfb8afb09fbcaaacabb7bab3aff1bcb0b2f1">[email&#160;protected]</a>  

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
AMY KLOBUCHAR, Minnesota             SAM BROWNBACK, Kansas
TOM UDALL, New Mexico                MEL MARTINEZ, Florida
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
                 Ann Begeman, Republican Staff Director
             Brian M. Hendricks, Republican General Counsel
                  Nick Rossi, Republican Chief Counsel
                                 ------                                

   SUBCOMMITTEE ON COMPETITIVENESS, INNOVATION, AND EXPORT PROMOTION

AMY KLOBUCHAR, Minnesota, Chairman   GEORGE S. LeMIEUX, Florida, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           JIM DeMINT, South Carolina
TOM UDALL, New Mexico                JOHN THUNE, South Dakota
MARK WARNER, Virginia                SAM BROWNBACK, Kansas
MARK BEGICH, Alaska                  MIKE JOHANNS, Nebraska


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 27, 2010...................................     1
Statement of Senator Klobuchar...................................     1
Statement of Senator LeMieux.....................................     3
    Prepared statement...........................................     4
Statement of Senator Udall.......................................     5
Statement of Senator Nelson......................................     6
Statement of Senator Begich......................................    31
Statement of Senator Cantwell....................................    34

                               Witnesses

Hon. John Barrasso, U.S. Senator from Wyoming....................     1
Ken Burns, Filmmaker, Florentine Films...........................     7
    Prepared statement...........................................     9
Will Shafroth, Deputy Assistant Secretary for Fish, Wildlife, and 
  Parks, U.S. Department of the Interior.........................    10
    Prepared statement...........................................    12
Michael M. Ward, Superintendent, Voyageurs National Park, 
  National Park Service, U.S. Department of the Interior.........    14
    Prepared statement...........................................    16
Diane Shober, Director of Tourism, State of Wyoming..............    17
    Prepared statement...........................................    19
Clyde Butcher, Photographer......................................    24
    Prepared statement...........................................    25
Scott Bacher, Owner and Operator, Carlsbad KOA, New Mexico.......    26
    Prepared statement...........................................    28

                                Appendix

Written questions submitted by Hon. Frank R. Lautenberg to Will 
  Shafroth.......................................................    45


     AMERICA THE BEAUTIFUL: PROMOTING OUR NATIONAL PARKS AS TRAVEL 
                              DESTINATIONS

                              ----------                              


                        TUESDAY, APRIL 27, 2010

                               U.S. Senate,
  Subcommittee on Competitiveness, Innovation, and 
                                  Export Promotion,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:02 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Amy 
Klobuchar, Chairman of the Subcommittee, presiding.
    Senator Klobuchar. Senator Barrasso, would you like to say 
a few words about your guest?

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Well, thank you very much, Madam 
Chairman.
    And it is a special delight to have, visiting here in the 
Senate, from the State of Wyoming, Diane Shober. Diane is 
incredible. She is the Director of Travel and Tourism for the 
State of Wyoming, and she does a magnificent job. I think all 
of America knows what a wonderful and beautiful State Wyoming 
is, and why we welcome our visitors. We're so happy that Diane 
is out there, continuing to share the wonderful story and the 
invitation, for all of America and all the world, to come to 
Wyoming.
    So, thank you, Madam Chairman, Ranking Member, I appreciate 
your time and your courtesy. Thank you.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Well, thank you so much.
    And as Senator Barrasso knows, every vacation I took, 
growing up, was to--first the Black Hills and then the Tetons 
and Yellowstone. And my most memorable one was when we brought 
the family camper--we didn't have one, we rented it--we pulled 
out of the driveway and our car went this way and the camper 
went down the hill.
    [Laughter.]
    Senator Klobuchar. And my mom was really not mad at my dad 
all. At all.
    [Laughter.]
    Senator Klobuchar. But, in any case, I have many fond 
memories of the beautiful parks in Wyoming.
    So, thank you, Senator Barrasso.
    Thank you all for coming today.
    Senator LeMieux and I are very excited about this hearing. 
I'm going to say a few words, then he is, and then we will turn 
to our witnesses.
    We're here today to examine the value of national parks as 
tourist destinations. We will consider the economic impact that 
national parks have on States and local communities, and look 
at ways to improve the promotion of national parks so we can 
get even more visitors and more people to experience the great 
beauties of our parks.
    As school winds down and families begin planning summer 
vacations, they have to remember the opportunities for 
affordable travel in our own country.
    We're all looking closely at our budgets right now, and 
national parks are one of the most economical travel options 
for Americans and travelers from other countries.
    As I mentioned, I spent most of my time, growing up, going 
to the Badlands and the Grand Tetons and Yellowstone. The 
national parks was part of my life. It is woven into our 
country's culture. They are on ``must see'' lists for domestic 
and international travelers, and have become American icons, 
part of the fabric of our country. The Grand Canyon, Voyageurs, 
Joshua Tree, Yosemite; each park is a powerful symbol of 
America.
    Of course, these parks are not simply natural resources; 
they are also one of our greatest economic assets. The dual 
mission of the National Park Service recognizes the roles that 
parks play in promoting tourism in America. The Park Service 
both protects the natural, cultural, and historic resources of 
the Nation, but it also provides for their use and enjoyment. 
These missions work hand in hand, because tourists who 
experience the parks, appreciate them more, and are more likely 
to support the conservation mission of the National Park 
Service.
    The statistics are huge. National parks receive nearly 275 
million recreational visits each year, and these visitors spend 
$11-and-a-half billion in the communities surrounding the 
parks. These ``gateway'' communities, large and small, have 
discovered and successfully developed the economic potential of 
national parks.
    A wide variety of businesses benefit. Just over half of 
park tourism dollars are spent on lodging and meals, with 17 
percent going for gas and transportation, 9 percent for 
groceries, and 14 percent for souvenirs. And many of these 
businesses are small and family-owned.
    Not only are these tourist dollars spent in and around 
national parks, they ripple through the local economy. In fact, 
for every dollar spent in the parks, another fifty cents is 
generated in the region. This is good for the economy and it 
helps create jobs.
    As we know from the recent debate over the Travel Promotion 
Act, one of eight Americans is employed in the travel industry. 
All told, national parks create over 230,000 jobs. These are 
good jobs that cannot be outsourced.
    In my State of Minnesota, over 640,000 people visit six 
national park units each year. These visits add nearly $30 
million to the economy and create over 800 local jobs. From the 
cabins near Grand Portage on the north shore of Lake Superior, 
to the outfitters along the Saint Croix Scenic River, from the 
gas stations outside Pipestone National Monument, to the 
grocery store on the way to Voyageurs, the national parks in 
Minnesota means jobs and an improved quality of life.
    Yet, despite their prominence, the parks face many 
challenges, which lead to innovation solutions. One way is to 
increase partnerships with State and local governments and 
businesses surrounding the parks. This is already happening; 
State tourism offices play a large role in promoting the parks 
in their States, which I'm sure we will hear from Wyoming.
    But, more can be done. Working together with tourism 
providers and local businesses, the Park Service can better 
encourage visits to lesser-known parks--we have one of those--
it's great, but lesser-known, right, Mr. Ward?--and 
underutilized areas, as well as visits to local sites. Another 
idea is to encourage visits to other nearby parks and 
attractions. By networking our parks, we can turn day trips 
into weekend vacations, and weekends into week-long adventures.
    We also need to do more to promote our national parks to 
international visitors. The bill that we all supported with 
Senator Dorgan, we're very hopeful that that idea of finally 
marketing our country internationally will bring in loads of 
tourists; and specifically, we should be marketing our national 
parks.
    In economic terms, tourism counts as an export. Instead of 
shipping our product to customers overseas, the customer is 
coming here to spend money.
    Finally, we should also encourage close-to-home trips and 
make sure people know the national parks are an affordable 
travel option. You can tent in Glacier, Yellowstone, or 
Yosemite for 10 or 20 bucks. Many parks, like Voyageurs in 
Minnesota, allow you to camp for free. That's right, for free.
    We can also improve how our parks are promoted, within the 
United States, to Americans who may not know about the parks or 
have the opportunity to visit them.
    I look forward to hearing from our panelists today, and I 
will introduce them after Senator LeMieux is here. We've also 
been joined by Senator Udall, and it's very special for us to 
have him here. We all miss his father very much, but, as you 
know, his father was really the spirit and heart of our 
national parks. And maybe when Senator LeMieux finishes, if you 
want to say a few words.
    Senator LeMieux.

               STATEMENT OF HON. GEORGE LeMIEUX, 
                   U.S. SENATOR FROM FLORIDA

    Senator LeMieux. Thank you, Madam Chair. And thank you for 
your leadership on this issue.
    This is really an issue that every Senator can get behind. 
I look forward to working with you and our other colleagues to 
promote travel to our national parks, and look forward to 
hearing the testimony from our witnesses today.
    You know, with 285 million visitors in 2009, it was nearly 
a record year for visitors to our national parks.
    And I think, Mr. Burns, you might have had something to do 
with that, so thank you.
    Florida is home to many State and national parks; most 
prominently, Everglades National Park, which is the largest 
subtropical wilderness in the United States. In Florida, we 
have an abundance of riches, in terms of destinations that 
people come to. They come for the beach, they come for golf, 
they come for Disney World, but they also come--and they should 
come more--for our national parks; especially Everglades 
National Parks, 1,509,000 acres, a beautiful place. It covers 
25 percent of the original 11,000-square-mile watershed that 
slowly flowed from the Kissimmee River to Lake Okeechobee, 
south to the estuaries of Biscayne Bay, the Ten Thousand 
Islands, and Florida Bay.
    According to a November 2008 National Park Service visitor 
study, between 20 and 46 percent of our visitors to Everglades 
National Park are foreign travelers from 19 countries. They 
understand--in some ways, Madam Chair, better than we do--the 
jewel that the Everglades National Park is. In fact, I'm a 
resident and a native of South Florida, and know that many of 
my friends, growing up, had never been to Everglades National 
Park. Like so many national parks, the Everglades plays an 
integral role in our surrounding economy.
    I look forward to hearing from our witnesses how we can 
best protect and preserve our national parks. And it gives me 
great pleasure to welcome, today, one of our witnesses, who is 
really a hero to me, and that's Clyde Butcher. He's joined by 
his wife Nikki, who is also here. He is an acclaimed 
photographer, an adopted Florida son, and his photography of 
the Everglades, and, really, places all around the world, is 
nothing short of spectacular. I visited his studio in the Big 
Cypress National Preserve, and it was a wonderful experience. 
His latest exhibition is entitled ``America the Beautiful: The 
Monumental Landscape of Clyde Butcher,'' and includes 50 large-
scale, stunning black-and-white photographs of the American 
landscape, spanning the United States from Maine to Hawaii to 
our own Everglades. He has been recognized by numerous 
organizations for his work, been featured in winning 
documentaries, including, Ken Burns' documentary about the 
national parks.
    So, welcome, to all of our folks here, who are here to 
testify. Thank you for making the trip, and thank you for your 
dedication to our national parks.
    [The prepared statement of Senator LeMieux follows:]

Prepared Statement of Hon. George S. LeMieux, U.S. Senator from Florida

    I look forward to working with my colleagues to promote travel to 
our national parks and I look forward to hearing about the importance 
of our national parks from today's witnesses.
    Florida is home to Everglades National Park, which is the largest 
subtropical wilderness in the United States.
    The park covers about 25 percent of the original 11,000 square 
miles watershed that slowly flowed from the Kissimmee River to Lake 
Okeechobee south to the estuaries of Biscayne Bay, the Ten Thousand 
Islands, and Florida Bay.
    According to a November 2008 National Park Service Visitor's Study, 
between 20 and 46 percent of visitors to the Everglades national park 
are foreign travelers from 19 countries, with the majority of them from 
Canada, Germany, and the Netherlands.
    Like so many national parks, the Everglades play an integral role 
in the surrounding economies.
    I look forward to hearing from our witnesses about how we can best 
protect and preserve our national parks.
    It gives me great pleasure to welcome one of today's witnesses who 
is from Florida, Clyde Butcher. He is joined by his wife Nikki. Clyde 
is an acclaimed photographer and adopted Florida sun and his 
photography is nothing short of spectacular.
    His latest exhibition is entitled ``America the Beautiful: The 
Monumental Landscape of Clyde Butcher'' and it includes 50 large-scale 
stunning black and white photographs of the American landscape, 
spanning the United States, from Maine to Hawaii to the Everglades in 
South Florida.
    Clyde has been recognized by numerous organizations and his work 
has been featured in award-winning documentaries, including Ken Burns's 
documentary, ``The National Parks: America's Best Idea.''

    Senator Klobuchar. Senator Udall, if you want to say a few 
words.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Sure, I'll try to be brief here, Senator 
Klobuchar.
    Let me thank the Chairman very much for holding this 
important hearing.
    And I'd like to welcome each of the witnesses joining us 
here today. I'd especially like to thank Scott Bacher, for his 
willingness to come and speak about his interactions with the 
Carlsbad Caverns National Park.
    Scott--and I apologize for the baby table there. Senators 
also get that baby table, actually.
    [Laughter.]
    Senator Udall. It's hooked at the end, and a couple of us 
freshmen, we are down there. So, you should know that we treat 
everybody equal-handedly.
    But, Mr. Bacher runs, reportedly, the best KOA in my State 
of New Mexico. His high-end campground and RV park accommodates 
tens of thousands of visitors to Carlsbad Caverns National Park 
every year. And Mr. Bacher represents thousands of small-
business owners across the country who depend on the visitation 
to national parks. And I appreciate his willingness to 
represent these individuals.
    And I thank the Chair for her interest in the economic 
impacts of the parks.
    New Mexico is home to 17 units of the National Park 
Service. These parks, monuments, historic trails celebrate New 
Mexico's proud heritage and help preserve its remarkable 
landscapes. They're important educational tools for local 
schools and traveling visitors; they're essential to 
biological, geological and archeological research; they protect 
irreplaceable natural resources; and finally, it is the focus 
of this hearing, that, these units of the National Park Service 
are economic engines, especially in times of economic 
difficulty, when families are looking for destinations closer 
to home.
    And just to say a word about Ken Burns--the Chair mentioned 
my father. I know that you came out to his home in Sante Fe, 
spent a number of hours filming him. It was one of the real 
delights of his life, near the end of his life, to spend time 
with you. He was able to see your National Park Service series. 
And, believe me, he saw it once, and then he wanted to watch it 
again, and he just kept watching it. And I can't think of a 
better promotional tool, is one way to say it, but it's a true 
work of art.
    And so, thank you for what you're doing.
    And I look forward to hearing from all the witnesses.
    Thank you, Amy.
    Senator Klobuchar. Thank you.
    Senator Nelson?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. And, you know, it's so true. Your dad was 
quite a national asset, and was just revered as the Secretary 
of the Interior. And I think it's wonderful that the family is 
continuing in public service.
    Senator Udall. Thank you, I got the defective gene.
    [Laughter.]
    Senator Nelson. Well, we have those wonderful national 
parks in our State of Florida. It's very interesting how we 
combine parks with other purposes. For example, back in the 
1950s, the government had to acquire so much land for the 
Kennedy Space Center, and a good part of the Kennedy Space 
Center is the Canaveral National Seashore Park. And the rest of 
the land that's set aside is the wildlife refuge. And 
Everglades is, just, this extraordinary treasure, only to be 
threatened by Burmese pythons.
    [Laughter.]
    Senator Klobuchar. I somehow knew you'd bring up space and 
snakes.
    [Laughter.]
    Senator Nelson. Hopefully not snakes on a spacecraft.
    [Laughter.]
    Senator Nelson. But, Mr. Butcher has dedicated all these 
decades of his life to capturing these exquisite landscapes in 
the Florida Everglades, and making, as a result, significant 
efforts to conservation. His gallery and studio are located on 
13 acres in the center of the Everglades.
    And we're privileged to have you here, today.
    Now, the subject matter here today, about how we can 
promote travel to our parks--that ties in, Madam Chairman, with 
what we just passed a couple of months ago, the Travel 
Promotion Act. It was signed into law last month, and it 
recognizes the foreign guest, the importance of that tourism to 
our Nation and economy, and makes the necessary investments to 
increase those foreign visitors coming to this country. And the 
national parks are certainly one of those attractions. And this 
committee not only has the obligation to boost tourism, but it 
has the obligation to make sure that our national parks, which 
include some coastlines and oceans and waterways, are available 
to the future generations for their enjoyment.
    And so, as we sit here today, there is a 40-mile-wide oil 
slick that is headed in the direction of Mobile Bay and 
Pensacola Beach; and if the wind shoots it the other way, it 
will head toward the coast of Louisiana. And we've got to 
continually remind ourselves of the containment and the safety 
of those offshore oil platforms.
    Thank you, Madam Chairman.
    Senator Klobuchar. Thank you very much, Senator Nelson.
    And I'm going to just quickly introduce our panelists 
today. We have, as been mentioned, award-winning documentary 
filmmaker Ken Burns. Many of you have seen his ground-breaking 
film series, ``The National Parks: America's Best Ideas''--
we're going to actually see a clip before everyone starts here; 
Michael Ward, who is the Superintendent of Voyageurs National 
Park in northern Minnesota; Diane Shober, from Wyoming, who was 
already introduced by Senator Barrasso; William Shafroth, who's 
the Deputy Assistant Secretary for Fish and Wildlife and Parks 
in the Department of Interior; Scott Bacher, who is the Owner 
and Operator of the Carlsbad KOA, and was introduced by Senator 
Udall.
    And then finally, Mr. Butcher, we're very honored to have 
you here, today.
    And as was mentioned--he was mentioned by--introduced by 
two Senators. So, my prediction is that we hope to have as many 
Senators here as at the Goldman Sachs hearing that's also going 
on today.
    [Laughter.]
    Senator Klobuchar. But, you should be very impressed. And I 
think it's a testament to our good panelists and the importance 
of this work.
    So, why don't we show Mr. Burns' clip, and then we will 
start with Mr. Burns, who, I know has to leave at 11:15.
    [Video presentation.]
    Senator Klobuchar. OK, that was quite an introduction, Mr. 
Burns. Please go ahead.

      STATEMENT OF KEN BURNS, FILMMAKER, FLORENTINE FILMS

    Mr. Burns. Madam Chair and members of the Committee, it's 
an honor to speak before you today.
    I wanted to say, first, to Senators Nelson and LeMieux, 
that I just took my 5-year-old youngest daughter into the 
Everglades and spent a weekend there, 10 days ago.
    And, Senator Udall, the very first interview, roll one out 
of more than 800 rolls of film, was with your father. He spoke 
about Theodore Roosevelt, and said that Theodore Roosevelt had 
``distance in his eyes,'' and I think there is not a person in 
this room that doesn't recognize that your father also had 
``distance in his eyes.'' And we've benefited from that wisdom. 
And we miss him terribly.
    Nearly 150 years ago, Madam Chairman, in the midst of the 
Civil War, when the Nation's very existence hung in the 
balance, Congress and President Abraham Lincoln, nonetheless, 
enacted legislation that reverberates to the most distant 
generation. They set aside the exquisite Yosemite Valley and 
magnificent Mariposa Grove of sequoias in California, 
instructing that State to protect it from commercial 
development forever. For the first time in human history, a 
large tract of natural land was preserved, not for the 
exclusive enjoyment of royalty or the rich, but for everyone.
    Eight years later, in 1872, a wonderland of geysers in 
Wyoming territory, at the headwaters of the Yellowstone River, 
was likewise set aside, but since there was no State to entrust 
it to, Congress instead designated it a national park. This, 
too, was something new in the history of the world. And it set 
in motion an idea that has now been copied by virtually every 
other country on the globe, becoming, like the idea of liberty 
itself, one of our greatest exports.
    In titling our PBS documentary film ``The National Parks: 
America's Best Idea,'' we borrowed from writer and historian 
Wallace Stegner, who said that the national parks were ``the 
best idea we've ever had.'' We acknowledge some hyperbole in 
this. The idea, embedded in our Declaration of Independence, 
that all human beings are created equal, unquestionably ranks 
higher. But, that idea was what created our Nation. Once the 
Nation was formed, it's hard to think of an idea that came from 
our government any better than the national parks.
    The parks, in fact, spring from the very same source. They 
are the Declaration of Independence applied to the landscape. 
Theodore Roosevelt, the greatest President in our history for 
the cause of conservation, noted what he called their 
``essential democracy.'' A generation later, another President 
named Roosevelt, Franklin Delano Roosevelt, said, ``There is 
nothing so American as our national parks,'' that they are 
``the outward symbol of this great human principle, that the 
country belongs to the people.''
    At this particular moment in history, it's worth noting 
that, during FDR's time in office, the Nation was facing the 
worst economic crisis of the 20th century, and yet, under his 
leadership, the national parks prospered. The Civilian 
Conservation Corps made improvements at virtually every park. 
New parks were created, and park attendance went up, not down.
    Roosevelt himself made a number of well-publicized visits 
to the parks, which, because of his handicap, he had to enjoy 
from the back of his touring car. But, he constantly encouraged 
other Americans to follow his example, to see for themselves 
these spectacular treasures that belong to them. He declared 
1934 the ``Year of the Parks,'' had the Postal Service create 
special stamps with park scenes on them, funded WPA artists to 
make posters promoting park tourism, and he hired the 
photographer Ansel Adams, for $22.22-a-day, to tour the parks 
and capture pictures that would inspire Americans to appreciate 
and visit the legacy they had inherited.
    Like the two Roosevelts, the first director of the National 
Park Service, Stephen Mather, understood how the parks 
reflected the core promise of America. In fact, he called them 
``vast schoolrooms of Americanism, where people are learning to 
love more deeply this land in which they live.'' Inspired by 
the naturalist John Muir, Mather also understood that parks 
are, as Muir said, ``places to play in and pray in, where 
nature may heal and give strength to body and soul alike.'' In 
his darkest moments, Mather had always found solace and renewed 
energy from visiting a national park.
    But, Mather was also a businessman, a tireless promoter, 
who had previously made ``20 Mule Team Borax'' a household 
name. He recognized that the parks could be a powerful economic 
engine for the Nation, and for the States and towns near them, 
and he made the most of it. He worked with the railroad 
companies to encourage Americans to ``See America First.'' He 
joined with automobile clubs and good-roads associations to 
lobby for improved highways to the parks that would unleash 
what he called the ``great flow of tourist gold'' into every 
community along the routes. He invited publishers and 
journalists to accompany him on camping trips, where he 
preached his gospel of the parks around the campfire, and urged 
them to spread that gospel in their newspapers and magazines.
    The United States, Mather said, ``possesses an empire of 
grandeur and beauty, the most inspiring playgrounds and the 
best-equipped nature schools in the world.'' And they 
constituted, he said, ``an economic asset of incalculable 
value.''
    Madam Chair, members of this committee, we should listen to 
these voices from our history. As Stephen Mather reminds us, 
national parks are an economic asset, and therefore deserve all 
the investment and support they can get, if only for the sake 
of boosting the balance of trade or the bottom line of the 
Nation's finances.
    As Franklin Roosevelt tells us, even in times of economic 
distress, the parks are worth promoting, defending, and 
expanding. They are good for business, but equally good at 
providing much-needed affordable recreation during hard times.
    And as Theodore Roosevelt urges us, national parks are a 
part of our ``essential democracy.'' ``Our people,'' he added, 
``should see to it that they are preserved for their children, 
and their children's children, forever, with their majestic 
beauty all unmarred.'' ``We are not building this country of 
ours for a day,'' Roosevelt said, ``it is to last through the 
ages.''
    National parks are not only America's best idea, they are 
the best investment this Congress can make.
    Thank you.
    [The prepared statement of Mr. Burns follows:]

      Prepared Statement of Ken Burns, Filmmaker, Florentine Films

    Madam Chair and members of the Committee, it's an honor to speak 
before you today.
    Nearly a hundred and fifty years ago, in the midst of the Civil 
War, when the Nation's very existence hung in the balance, Congress and 
President Abraham Lincoln nonetheless enacted legislation that would 
reverberate to the most distant generation. They set aside the 
exquisite Yosemite Valley and magnificent Mariposa Grove of sequoias in 
California, instructing the state to protect it from commercial 
development forever.
    For the first time in human history, a large tract of natural land 
was preserved, not for the exclusive enjoyment of royalty or the rich, 
but for everyone.
    Eight years later, in 1872, a wonderland of geysers in Wyoming 
Territory, at the headwaters of the Yellowstone River, was likewise set 
aside--but since there was no state to entrust it to, Congress instead 
designated it as a ``national'' park.
    This, too, was something new in the history of the world. And it 
set in motion an idea that has now been copied by virtually every other 
country on the globe, becoming, like the idea of liberty, one of our 
greatest exports. (I should note that the idea spread quickly to 
California, as well, where Yosemite was soon transferred back to the 
Federal Government for better protection as a national park.)
    In titling our PBS documentary film, The National Parks: America's 
Best Idea, we borrowed from writer and historian Wallace Stegner, who 
said that national parks are ``the best idea we ever had.'' We 
acknowledge some hyperbole in this. The idea imbedded in our 
Declaration of Independence--that all human beings are ``created 
equal'' and possess the inalienable rights of ``life, liberty and the 
pursuit of happiness''--unquestionably ranks higher. But that idea is 
what created our nation. Once the Nation was formed, it's hard to think 
of an idea that came from our government any better than the national 
parks.
    The parks, in fact, spring from the same source. They are the 
Declaration of Independence applied to the landscape. Theodore 
Roosevelt, the greatest president in our history for the cause of 
conservation, noted what he called their ``essential democracy . . . 
the preservation of the scenery, of the forests . . . and the 
wilderness game for the people as a whole instead of leaving the 
enjoyment thereof to be confined to the very rich.''
    A generation later, another President named Roosevelt, Franklin 
Delano Roosevelt, said ``there is nothing so American as our national 
parks,'' that they are ``the outward symbol of this great human 
principle . . . that the country belongs to the people.''
    At this particular moment in history, it's worth noting that during 
Roosevelt's time in office, the Nation was facing the worst economic 
crisis of the 20th century--and yet, under his leadership, the national 
parks prospered. The Civilian Conservation Corps made improvements at 
virtually every park. New parks were created. And park attendance went 
up, not down.
    Roosevelt himself made a number of well-publicized visits to the 
parks--which, because of his handicap, he had to enjoy from the back 
seat of his touring car. But he constantly encouraged other Americans 
to follow his example, to see for themselves these spectacular 
treasures that belonged to them.
    He declared 1934 the ``Year of the Parks,'' had the Postal Service 
create special stamps with park scenes on them, funded WPA artists to 
make posters promoting park tourism--and he hired the photographer 
Ansel Adams (for $22.22 a day) to tour the parks and capture pictures 
that would inspire Americans to appreciate the legacy they had 
inherited. (Adams, by the way, said that paying him to travel to every 
national park was ``one of the best ideas ever to come out of 
Washington.'')
    Like the two Roosevelts, the first director of the National Park 
Service, Stephen Mather, understood how the parks reflected the core 
promise of America. In fact, he called them ``vast schoolrooms of 
America, where people are . . . learning to love more deeply this land 
in which they live.'' Inspired by John Muir, Mather also understood 
that parks are, as Muir said, ``places to play in and pray in, where 
nature may heal and give strength to body and soul alike.'' In his 
darkest moments, Mather had always found solace and renewed energy from 
visiting a national park.
    But Mather was also a businessman, a tireless promoter who had 
previously made Twenty Mule Team Borax a household name. He recognized 
that the parks could be a powerful economic engine--for the nation, and 
for the states and towns near them--and he made the most of it.
    He worked with the railroad companies to encourage Americans to 
``See America First.'' He joined with automobile clubs and good-roads 
associations to lobby for improved highways to the parks that would 
unleash what he called ``the great flow of tourist gold'' into every 
community along the routes. He invited publishers and journalists to 
accompany him on camping trips, where he preached his gospel of the 
parks around the campfire and urged them to spread that gospel in their 
newspapers and magazines.
    The United States, Mather said, ``possesses an empire of grandeur 
and beauty, . . . the most inspiring playgrounds and the best equipped 
nature schools in the world.'' And they constituted, he said, ``an 
economic asset of incalculable value.''
    Madam Chair, members of this committee, we should listen to these 
voices from our history.
    As Stephen Mather reminds us, national parks are an economic 
asset--and therefore deserve all the investment and support they can 
get, if only for the sake of boosting the balance of trade or the 
bottom line of the Nation's finances.
    As Franklin Roosevelt tells us, even in times of economic distress, 
the parks are worth promoting, defending--and expanding. They are good 
for business, but equally good at providing much-needed, affordable 
recreation during hard times.
    And as Theodore Roosevelt urges us, national parks are part of our 
``essential democracy.'' ``Our people,'' he added, ``should see to it 
that they are preserved for their children and their children's 
children forever, with their majestic beauty all unmarred.''
    ``We are not building this country of ours for a day,'' Roosevelt 
said. ``It is to last through the ages.''
    National parks are not only America's best idea. They are the best 
investment this Congress can make.
    Thank you.

    Senator Klobuchar. Thank you very much.
    Mr. Shafroth.

          STATEMENT OF WILL SHAFROTH, DEPUTY ASSISTANT

            SECRETARY FOR FISH, WILDLIFE, AND PARKS,

                U.S. DEPARTMENT OF THE INTERIOR

    Mr. Shafroth. Thank you, Madam Chair.
    I also want to, if I could, just acknowledge Senator 
Udall's father, who did so much for this country, but a 
personal inspirational for me. As an 18-year-old freshman at 
the University of California at Santa Barbara, I read his book, 
``The Quiet Crisis,'' and it helped turn me into what now is a 
30-year career in conservation. So, many, many people like me 
out there are his foot-soldiers that carry on his work.
    So, thank you, for all you're doing as well, Senator.
    Madam Chair, thank you for the opportunity to appear before 
you today to present the Department of Interior's views on 
tourism and national parks.
    If I may, I'd like to submit my entire statement for the 
record, and summarize my remarks here.
    Senator Klobuchar. It'll be included.
    Mr. Shafroth. Thank you.
    Visitation levels for the National Park System demonstrate 
the public's great interest in these national treasures as 
tourism destinations. In 2009, there were over 285 million 
visits to national parks, recreation areas, historic sites, and 
other units; a 3.9-percent increase over the previous year. 
We're assuming that, because of the movie that Mr. Burns 
created, that that's going to go up in 2010, because it didn't 
come out until the end of September, so not many people had a 
chance to book their reservations at that point.
    So, our national parks are important to local and regional 
economies. In 2008, visitors spent $11.6 billion in communities 
surrounding national park units, and supported 205,000 local 
jobs.
    The levels of visitation and economic impact vary 
significantly by park. Yellowstone National Park, premier 
tourist destination, attracted almost 3.3 million visitors in 
2009. Voyageurs National Park--less--somewhat less known, 
attracted about 220,000. I told Mr. Ward that I intend to be a 
visitor to his national park in 2010, the second week in 
August.
    So, I will look forward to seeing you there.
    One study found that communities surrounding the largest 
units of the National Park System, had, on average, almost four 
times faster population growths, almost three times faster job 
growth, and two times faster growth in real income than the 
Nation, overall.
    We have no estimates of international visitation for the 
park system as a whole, but we do--estimates do exist for 
certain parks. We've already heard about the importance of 
international visitation to Everglades, but Yellowstone 
National Park, with over two-thirds of international visits--
visitors coming from Canada, Netherlands, Germany, and United 
Kingdom, and Italy. At Voyageurs, on the other hand, 
internationally tourism accounts for only about 1 percent of 
all visitation, with almost two-thirds of international 
visitors from Canada, Germany, and United Kingdom.
    In 2008, the National Park Service approved a national 
tourism plan, titled ``Strategic Alliances for Sustainable 
Visitation.'' The plan addresses the need for national park 
experiences to be as relevant to our new audiences in the 21st 
century as in the past. The National Park Service is encouraged 
to take advantage of the significant partnership capacity 
available among people and organizations in the tourism 
community.
    National Park Service manages 17 of the 20 World Heritage 
Sites, Everglades being one of them, that have been designated 
United States. The significance placed on a World Heritage Site 
experience is a strong factor in influencing destination 
decision by making prospective international--made by 
prospective international visitors. The National Park Service 
sites include the Grand Canyon, Yellowstone, Everglades, and 
State of Liberty, but also some lesser-known destinations as 
Chaco Culture National Historic Park and San Juan National 
Historic Site. Promotional campaigns based on National Park 
Service-managed World Heritage Sites geared toward 
international tourists could help increase international 
tourism in the United States.
    Two current activities may have implications for promotion 
of national parks to international travelers. One is the U.S. 
Travel Association's annual business-to-business marketplace, 
known as International Pow Wow. This year, during the 4-day 
event in May, the Association will use one day to celebrate 
America's national parks. I think it's the first time that 
that's happened.
    The other undertaking of the National Park Service's 
involvement in commemorative activities related to the 
sesquicentennial of the U.S. Civil War, over the last 5--or, 
over the next 5 years, the Service and its tourism partners 
intend to encourage Americans and international visitors to 
visit our more than 75 park units that interpret Civil War 
battles, the Civil Rights struggle for freedom and equality, 
and home-front stories emanating from the era, such as 
expansion to the West.
    The recent passage of the Travel Promotion Act could 
provide greater opportunities for attracting more international 
visitors to national parks. International visitors typically 
spend at least $4,000 per visit, contributing $4 billion to the 
U.S. economy. These visitors have a large role now, and could 
have an even larger role in the future, in the economic support 
of national park gateway communities.
    The new Corporation for Travel Promotion could potentially 
contribute to the growth by showcasing the units of the 
National Park System.
    Madam Chairwoman, this concludes my testimony. I'd be happy 
to answer any questions that you or other members of the 
Committee may have.
    [The prepared statement of Mr. Shafroth follows:]

  Prepared Statement of Will Shafroth, Deputy Assistant Secretary for 
       Fish, Wildlife, and Parks, U.S. Department of the Interior

    Madam Chairwoman, thank you for the opportunity to appear before 
you today to present the Department of the Interior's views on tourism 
and national parks. The National Park Service is proud to be a steward 
of our Nation's most revered natural, historical, and cultural sites 
and to welcome visitors from across the Nation and all over the world 
to enjoy these special places.
    Visitation levels for the National Park System demonstrate the 
public's great interest in these national treasures as tourism 
destinations. In 2009, there were over 285 million visits to national 
parks, recreation areas, historic sites, and other units--a 3.9 per 
cent increase over the previous year. Our national parks are important 
to local and regional economies. In 2008, visitors spent $11.6 billion 
in communities surrounding national park units and supported 205,000 
local jobs.\1\ The economic sectors most directly affected by this 
visitor spending include lodging, restaurants, retail trade, 
transportation, and amusements.
---------------------------------------------------------------------------
    \1\ Stynes, D.J. ``National Park Visitor Spending and Payroll 
Impacts: 2008.'' National Park Service, 2009.
---------------------------------------------------------------------------
    The levels of visitation and economic impact vary significantly by 
park. Yellowstone National Park, a premier tourist destination, 
attracted almost 3.3 million visitors in 2009; Voyageurs National Park, 
which is less well-known, attracted about 222,000 visitors. In between, 
to give a few examples, were Mount Rushmore National Memorial, with 
2,260,192 visitors; Shenandoah National Park, with 1,120,981 visitors; 
Everglades National Park, with 900,882 visitors; Castillo de San Marcos 
National Monument, with 667,783 visitors; and Carlsbad Caverns National 
Park, with 432,639 visitors.
    Generally, the more visitors a park has, the greater the economic 
impact. Economic analyses from 2008 show that those same parks 
mentioned had economic impacts as follows: Yellowstone, $345 million in 
visitor spending and 6,300 jobs; Everglades $84.7 million in spending 
and 1,551 jobs; Shenandoah, $65.7 million in spending and 1,170 jobs; 
Mount Rushmore, $60.4 million in spending and 1,146 jobs; Castillo de 
San Marcos, $41 million in spending and 719 jobs; Carlsbad Caverns, 
$22.3 million in spending and 437 jobs; and Voyageurs, $11 million in 
spending and 200 jobs.\2\ One study found that communities surrounding 
the largest units of the National Park System had, on average, almost 
four times faster population growth, almost three times faster job 
growth, and two times faster growth in real income than the Nation 
overall.\3\
---------------------------------------------------------------------------
    \2\ Ibid.
    \3\ Power, T.M. ``The Economic Foundations of Public Parks.'' The 
George Wright Forum, 2002.
---------------------------------------------------------------------------
    Within overall levels we have no estimates of international 
visitation for the National Park System as a whole. However, estimates 
do exist for certain parks. For example, international tourism accounts 
for approximately 10 percent of all visitation at Yellowstone National 
Park, with over two-thirds of the international visitors coming from 
Canada, the Netherlands, Germany, the United Kingdom, and Italy. At 
Voyageurs National Park, on the other hand, international tourism 
accounts for only about 1 percent of all visitation, with almost two-
thirds of the international visitors coming from Canada, Germany, and 
the United Kingdom.
    In 2008, the National Park Service approved a national tourism plan 
titled ``Strategic Alliances for Sustainable Visitation.'' The plan 
addresses the need for national park experiences to be as relevant to 
our new audiences in the 21st century as in the past. To accomplish 
this goal, individual parks and the National Park Service as a whole 
are encouraged to take advantage of the significant partnership 
capacity available among people and organizations in the tourism 
community.
    When we engage our tourism partners to invite Americans and 
overseas travelers, we expand our capacity to inform audiences about a 
myriad of enjoyable experiences and environmental stewardship which are 
the cornerstones of the National Park Service mission. We analyze and 
leverage common interests through tourism partnerships. Common 
interests include a desire to reach target audiences such as families 
who travel with children, diverse demographic groups that travel more 
often if their awareness is increased, and travelers who may prefer to 
visit during off-peak periods. In this way, we can highlight the 
special experiences and opportunities in visiting some of the ``hidden 
gems'' in our collection of lesser-known park units. Working in concert 
with our tourism partners, we can also leverage our communications 
resources to expand the reach of our conservation messages.
    The National Park Service also promotes a sustainable tourism 
project, referred to as GeoTourism, which is compatible with the 
National Park Service mission of preservation and education. An example 
of this can be found in a new and innovative marketing project in the 
``Crown of the Continent'' GeoRegion, where Glacier National Park is 
located. In an effort that began with the formation of a local 
stewardship council, the gateway communities and state tourism office 
in Montana and the provincial tourism office in Alberta tell stories 
about visitor experiences that include cultural, historical, tribal, 
and recreational activities in a way that respects conservation and 
community values and asks the visitors to do the same. While the 
impetus and communications concept came from the community, the Federal 
land management agencies, including the National Park Service tourism 
program and Glacier National Park staff, played an important role in 
facilitating the project. Another key partner in GeoTourism projects is 
the National Geographic Society's Center for Sustainable Destinations.
    The National Park Service manages 17 World Heritage Sites, which 
hold special appeal with international travelers. The significance 
placed on a World Heritage Site experience is a strong factor in 
influencing destination decisionmaking by prospective international 
visitors, The United States is fortunate to have 20 U.S. sites included 
on the UNESCO World Heritage List, which includes almost 900 important 
cultural and natural treasures around the globe. World Heritage Sites 
such as the Great Barrier Reef, the Serengeti plains, and the Taj Mahal 
give the World Heritage List great prestige and make the designation 
greatly sought after by many countries. The National Park System sites 
include the Grand Canyon, Yellowstone, the Everglades, and the Statue 
of Liberty, but also some lesser-known destinations such as Chaco 
Culture National Historical Park in New Mexico and San Juan Historic 
Site in Puerto Rico. Many countries, particularly those in Europe, 
Latin America, and Asia, have taken advantage of the World Heritage 
designation to market and promote their heritage to the global 
community. Promotional campaigns based on National Park Service-managed 
World Heritage Sites geared toward international tourists could help 
increase international tourism to the U.S.
    Two current activities may have implications for promotion of 
national parks to international travelers. One is the U.S. Travel 
Association's annual business-to-business marketplace known as the 
International Pow Wow. This year, during the four-day event in May 
2010, the association will use one day to celebrate ``America's 
National Parks.'' It will be an opportunity for 5,000 buyers and 
suppliers of U.S. package tours, as well as over 100 members of the 
international media, to focus on national parks. Several park 
professionals will be on hand during the event to meet with members of 
this influential group.
    The other undertaking is the National Park Service's involvement in 
commemorative activities related to the sesquicentennial of the U.S. 
Civil War, and its causes and consequences for our Nation's 
development. A Servicewide working group has completed a vision 
statement for the commemoration as well as a set of public events 
covering all facets of historical consideration--battlefields and 
beyond. Over the next 5 years, the Service, along with tourism 
partners, intends to encourage Americans and international visitors to 
visit our more than 75 park units that interpret the Civil War battles, 
the Civil Rights struggle for freedom and equality, and home front 
stories emanating from the era such as the expansion of the west. Most 
of the national park units involved in this effort are among the 
lesser-known parks, but include well-known parks, such as Gettysburg 
National Military Park.
    The recent passage of the Travel Promotion Act could provide 
greater opportunities for attracting more international visitors to 
national parks. International visitors typically spend at least $4,000 
per visit, contributing $4 billion to the U.S. economy. According to a 
recent survey compiled by the Commerce Department's Office of Travel 
and Tourism Industries, of the estimated 23.8 million overseas 
travelers to the United States, approximately 4.5 million, or 19 
percent, are said to have visited a national park. These visitors have 
a large role now, and could have an even larger role in the future, in 
the economic support of national park gateway communities. The new 
Corporation for Travel Promotion could potentially contribute to the 
growth by showcasing the units of the National Park System--the icons 
and hidden gems alike--in its efforts to attract visitors from abroad.
    Madam Chairwoman, this concludes my prepared statement. I would be 
happy to answer any questions you or other members of the Subcommittee 
may have.

    Senator Klobuchar. Thank you very much.
    Next, we have Mr. Ward, who heads up Voyageur Park in 
Minnesota.
    I note, Mr. Ward, thank you so much, for accepting my 
personal invitation to be here today. And you'd better watch 
out, now that Senator Begich from Alaska has joined us. We 
can't start claiming, like, Minnesota is the ``Moose Capital of 
the World,'' you know, things that we might almost----
    [Laughter.]
    Senator Klobuchar. Anyway, continue on, Mr. Ward.

         STATEMENT OF MICHAEL M. WARD, SUPERINTENDENT, 
        VOYAGEURS NATIONAL PARK, NATIONAL PARK SERVICE, 
                U.S. DEPARTMENT OF THE INTERIOR

    Mr. Ward. Thank you. Madam Chairwoman, thank you for the 
opportunity to speak to you today on an issue that is vital to 
Voyageurs National Park and the gateway communities that 
support the park.
    It's fitting that Voyageurs National Park is represented 
here today. This subcommittee, with responsibilities related to 
trade, has a subject matter tied to the history that is 
commemorated at Voyageurs National Park. The original 
voyageurs, French-Canadian canoemen, carried various trade 
goods and bartered them for furs trapped by the Ojibwa Indians. 
They canoed the waters, in a customary route that became the 
international border between the United States and Canada. I 
think it's also fitting that the discussion today covers 
tourism that crosses international borders, including the 
original boundary established by the voyageurs.
    Voyageurs National Park is a 218,000-acre water-based park 
located in northern Minnesota. The park was established in 
April 1975, and this year we celebrate our 35th anniversary. 
The park was created to preserve the outstanding scenery, 
geological conditions, and waterway system that comprised part 
of the historic route of the voyageurs, who contributed 
significantly to the opening of the Northwest Territories.
    The park, and its diverse resources, provide outstanding 
opportunities for scientific and artistic study, environmental 
education, exploring indigenous and historic cultures, a wide 
array of outdoor activities, and an appreciation of the 
Northwoods lake-country setting.
    There are five gateway communities that support our park. 
They are the City of Orr, the communities of Ash River, 
Kabetogama, Crane Lake, and the City of International Falls. 
The park provides an estimated economic impact of approximately 
$11 million and 200 jobs to the regional economy. In these 
small communities, the park serves as one of the primary 
employers and the reason for which most private businesses 
exist. These businesses offer gas, lodging, food, fishing 
guides, and other amenities. Within three of the gateway 
communities, the livelihood of these people is completely 
dependent on tourism receipts associated with park visitors. 
Over the years, services in these communities have declined 
substantially. The decline may be a result of the closure and 
sale of resorts near the park, or perhaps it's associated with 
the downturn in economy.
    Over the last few years, the park has worked with its 
partners and our gateway communities to increase tourism. We 
have completed several projects, including creating a 
national--a public television film of all the National Park 
Service units in Minnesota, to link to Ken Burns' film about 
national parks; constructing a new 49-passenger tour boat to 
serve visitors without a boat and to increase access into the 
park; expanding winter activities to increase visitation, 
seasonally; and partnering with Destination Voyageurs National 
Park, a non-for-profit 501(c)(6) organization which works to 
increase and support park tourism.
    Visitation at the park in 2009 was slightly lower than 
previous years, at 222,000. Only about 1 percent of these 
visitors were international tourists. Two-thirds of the 
international visitors to Voyageurs travel from Canada, 
Germany, and the United Kingdom. For a park that shares an 
international border, we would expect a higher rate of 
international tourists.
    The new Corporation for Travel Promotion could potentially 
help market and share America's great outdoors with more 
international travelers. Voyageurs National Park and its 
gateway communities offer recreation, history, culture, and 
scenic beauty that we believe visitors from abroad would enjoy 
immensely, if only they knew enough about the park to plan a 
visit there.
    Thank you.
    [The prepared statement of Mr. Ward follows:]

   Prepared Statement of Michael M. Ward, Superintendent, Voyageurs 
 National Park, National Park Service, U.S. Department of the Interior

    Madam Chairwoman, thank you for the opportunity to speak to you 
today on an issue that is vital to Voyageurs National Park and the 
gateway communities that support the park.
    It is fitting that Voyageurs National Park is represented here 
today. This subcommittee, with responsibilities related to trade, has a 
subject matter tie to the history that is commemorated at Voyageurs 
National Park. The original voyageurs, French-Canadian canoemen, 
carried various trade goods and bartered them for furs trapped by the 
Ojibwa Indians. They canoed the waters in a customary route that became 
the international border between the United States and Canada. I think 
it is also fitting that the discussion today covers tourism that 
crosses international boundaries, including the original boundary 
established by the voyageurs.
    Voyageurs National Park is a 218,000-acre water-based park located 
in northern Minnesota. The park was established on April 8, 1975, and 
this year we celebrate our 35th anniversary. The park was created to 
preserve the outstanding scenery, geological conditions, and waterway 
system that comprise part of the historic route of the voyageurs who 
contributed significantly to the opening of the Northwest Territories.
    The park and its diverse resources provide outstanding 
opportunities for scientific and artistic study, environmental 
education, exploring indigenous and historic cultures, a wide array of 
outdoor recreation, and an appreciation of the north woods lake country 
setting.
    Five gateway communities support our park. They are the City of 
Orr, the communities of Ash River, Kabetogama, Crane Lake, and the City 
of International Falls. The park provides an estimated economic impact 
of approximately $11 million in spending and 200 jobs to the regional 
economy.\1\ In these small communities, the park serves as one of the 
primary employers and the reason for which most private businesses 
exist. These businesses offer gas, lodging, food, fishing guides, and 
other amenities. Within three of the gateway communities, the 
livelihood of these people is completely dependent on tourism receipts 
associated with park visitors. Over the years, services in these 
communities have declined substantially. The decline may be as a result 
of the closure and sale of resorts near the park or perhaps it is 
associated with the downturn in the economy.
---------------------------------------------------------------------------
    \1\ Stynes, D.J. ``National Park Visitor Spending and Payroll 
Impacts: 2008.'' National Park Service, 2009.
---------------------------------------------------------------------------
    Over the last few years the park has worked with its partners and 
our gateway communities to increase tourism. We have completed several 
projects including: creating a public television film of all of the 
National Park Service units in Minnesota to link to Ken Burns' film 
about national parks, constructing a new 49-passenger tour boat to 
serve visitors without a boat and to increase access into the park, 
expanding winter activities to increase visitation seasonally, and 
partnering with Destination Voyageurs National Park, a non-profit 
501(c)6 organization, which works to support and increase park tourism.
    Visitation at the park in 2009 was slightly lower than previous 
years at 222,000 people. Only about 1 percent of these visitors were 
international tourists. Two-thirds of the international visitors to 
Voyageurs travel from Canada, Germany, and the United Kingdom. For a 
park that shares an international border, we would expect a higher rate 
of international tourists.
    The new Corporation for Travel Promotion could potentially help 
market and share America's great outdoors with more international 
travelers. Voyageurs National Park and its gateway communities offer 
recreation, history, culture, and scenic beauty that we believe 
visitors from abroad would enjoy immensely, if only they knew enough 
about the park to plan a visit there.
    Madam Chairwoman, this concludes my prepared statement. I would be 
happy to answer any questions you or other members of the Subcommittee 
may have.

    Senator Klobuchar. Thank you very much, Mr. Ward.
    Ms. Shober.

        STATEMENT OF DIANE SHOBER, DIRECTOR OF TOURISM, 
                        STATE OF WYOMING

    Ms. Shober. Thank you, Madam Chair Klobuchar, Ranking 
Member LeMieux, and other distinguished members of the 
Subcommittee, for inviting me to testify before you today.
    As you know, I'm Diane Shober. I'm the Director of Tourism 
for the State of Wyoming, a position that I've held since 2003. 
I'm also on the Board of the U.S. Travel Association, and a 
member of the Western States Tourism Policy Council. So, the 
interest that this committee shares in this industry, and 
specifically the value of our national parks as part of the 
American travel experience, is greatly appreciated.
    It is no doubt that tourism is big business in Wyoming. Our 
annual advertising budget is $6 million a year. And we hang our 
hats on the fact that traveling consumers associate 
Yellowstone, Grand Teton, and Devils Tower National Monument 
with Wyoming. And you will always see one of these national 
icons featured in our national advertising campaign.
    I brought, today, two examples of our print campaign. One 
features Grand Teton National Park, the sub-line there, with 
the--below the couple--``For generations, finding yourself has 
come right after discovering your insignificance.'' And then, 
in Yellowstone National Park, ``You've passed down your love of 
cars, your record collection, but a Yellowstone tradition is 
something they'll always treasure.'' And so, clearly we're 
using our national parks to drive tourism in Wyoming.
    And thanks to our sound marketing efforts, visitors still 
came to Wyoming, even during the recession last year. While 
national leisure travel declined by 2 percent, Wyoming's 
visitation actually grew. As you heard, Yellowstone recorded a 
3.2-million record--recreation visits last year. That was the 
highest since 1999, 10 years ago.
    So, the correlation between tourism marketing and increased 
visitation to our parks is no coincidence. We spend millions to 
invite consumers to visit our national parks and immerse 
themselves in this unique experience. While other States were 
forced to cut back in 2009, we were broadening the Wyoming 
footprint.
    And the value of national parks to gateway communities, and 
vice versa, is also an important component in the tourism 
equation. National parks serve as a lure for visitors, and, in 
turn, gateway communities provide much of the necessary visitor 
services. It's an effective partnership to both, as the 
national parks serve as an economic engine for gateway 
communities, and the cities relieve some of the pressure of the 
resource, helping to enhance the sustainability of the park.
    Our office has a good working relationship with our 
national parks in Wyoming. However, due to our role as a 
marketing agency, most collaboration is done in conjunction 
with the parks' concessionaires, who have a vested interest in 
marketing their parks and also have the marketing budgets with 
which to do so. We've had a great relationship with Xanterra 
Parks and Resorts and Grand Teton Lodge Company.
    And although the National Park Service adopted a very good 
tourism strategy in 2008, its implementation and effectiveness 
have been limited; in part, due to lack of funding, but also 
due, in part, to acceptance at the local park level. If the 
budget for the National Park Tourism Office were increased to 
one million, from the no-more-than 200,000 at present, that 
office could work more closely with the travel industry and the 
gateway communities--for example, by implementing cooperative 
marketing programs and pilot projects to educate visitors and 
park staff on their mutual interest.
    It's my belief that, when visitors come and they personally 
experience these natural wonders, they are much more likely to 
have a deeper understanding about the resource and its 
importance to the world. By effectively implementing their 
national tourism strategy, the National Park Service could be 
more proactive in shaping tourism development and the 
associated impacts.
    Filming in the park also remains an issue. While we fully 
support the fees assessed for commercial projects, and 
understand the need for an application process and a system of 
rules to protect the resource, we also know that the required 
wait time for the permit, and the lack of priority that these 
requests receive, results in a disincentive for commercial use 
of the parks, and an economic loss for the national parks and 
our State.
    Thanks to the support and work of this committee, and 
particularly Senators Rockefeller, Klobuchar, Dorgan, and 
Ensign, the Travel Promotion Act was approved by Congress and 
signed into law of--March of this year. As you know, the bill 
creates a not-for-profit Corporation for Travel Promotion to 
better communicate our security policies and promote America as 
a premier travel destination. This new Travel Promotion Act 
will go a long way to ensure that visitors see us for who we 
really are, want to visit us, and tour our national parks. By 
attracting millions of new international travelers, it will 
help generate $4 billion annually in new revenue, create 40,000 
new jobs, and generate $321 million in new tax revenue each 
year, for the U.S. economy.
    As the Federal Government moves to implement the Travel 
Promotion Act, it's critical that two issues receive immediate 
attention. First, funding for the new Corporation for Travel 
Promotion must be secured as quickly as possible. This year, 
the Corporation is eligible to receive 10 million in startup 
funds from the U.S. Treasury. The funds are needed to form the 
Corporation, hire staff, develop marketing plans, and 
successfully secure the voluntary industry financial 
investments in year two. Without this initial transfer of 
funds, there is great risk that the Corporation's efforts will 
be undermined from the outset.
    I know the Committee is aware of this concern and is 
working with the Departments of Commerce and Homeland Security 
to determine the best path forward, and I thank you for your 
work on that.
    Second, a new effort is needed to provide the new 
Corporation for Travel Promotion, and actually every State in 
America, more reliable and valid data on where internationals 
visit when they're coming to the United States. Unfortunately, 
States like Wyoming are considered statistically insignificant, 
and we do not receive reliable data on the volume of our 
international visitors, their country of origin, or their 
estimated economic impact. This information is fundamental to 
any ongoing international marketing efforts, going forward.
    Like many others, we are encouraged by this 
Administration's interest in the industry as an economic driver 
for America. The recent America's Great Outdoors Initiative and 
the National Export Initiative are of particular interest to 
Wyoming. We fully understand the value of travel as a means to 
provide economic stimulus, and look forward to doing what we 
can to support the efforts to assure a healthy and prosperous 
future for Wyoming and the United States.
    Madam Chair and members of the Subcommittee, thank you 
again for inviting me here today. Your interest in learning 
more about the benefits of national parks and tourism provide 
to Wyoming and the rest of America is commendable and greatly 
appreciated.
    [The prepared statement of Ms. Shober follows:]

       Prepared Statement of Diane Shober, Director of Tourism, 
                            State of Wyoming

Importance of the National Parks to Wyoming
    To say the national parks are important to Wyoming would be an 
understatement. Fortunately, we are home to America's fist national 
park, Yellowstone, and the majestic Grand Teton National Park and as 
well as our first national monument, Devils Tower. Without a doubt, 
Yellowstone and Grand Teton National Parks are clearly the destination 
drivers for Wyoming's tourism economy. But it is also important to note 
the entire greater Yellowstone ecosystem is essential to the very fiber 
of Wyoming and the west. This ecosystem includes the head waters of 
major river systems, is home to multiple species of wildlife and water 
fowl, abundant outdoor recreation opportunities, learning and education 
in a unique outdoor laboratory, the source of thousands of jobs, 
provides quality of life for residents and visitors and so much more.
Marketing Wyoming
    Tourism is big business in Wyoming. And our national parks are at 
the epicenter of our tourism industry. In fact, tourists were visiting 
Yellowstone long before Wyoming was even a state. And today we continue 
to build on that love affair that travelers from all around the world 
have with America's national parks.
    In 2005, we conducted a branding audit to shape the strategic 
vision for how we market Wyoming and what our marketing message should 
be. The outcomes clearly identified Yellowstone and Grand Teton 
National Parks and Devils Tower National Monument as unique 
differentiators for our state, along with the authenticity of the west. 
Since then, we have conducted our tourism marketing under the brand, 
Wyoming Forever West. Forever West embodies Wyoming's finest 
attributes, including wide open spaces, unobstructed views sheds, 
mountains and wildlife and the western way of life.
    Each year we spend millions of dollars on advertising Wyoming as a 
destination. Our advertising budget averages right at $6 million 
annually and we deploy marketing messages via television, magazine, 
online, outdoor, direct mail and through social media campaigns. We 
hang our hat on the fact that traveling consumers associate 
Yellowstone, Grand Teton and Devils Tower as differentiators for 
Wyoming and you will always see one of them featured in our national 
advertising campaign.
    Two examples of our print campaign are included:

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    While these are only two examples of our overall campaign, the 
essence of our message is carried throughout everything we do. And the 
good news is, it's working!
Economic Impact of Tourism
    The year 2009 brought more than its share of economic challenges to 
consumers and businesses around the world. While the Wyoming tourism 
industry was challenged as well, tourism remains a key part of our 
state's economy. For the first time in 12 years, though, we saw 
declines across all but one segment of the travel industry. 
Fortunately, the economy increasingly shows signs of life, which should 
give all of us hope for brighter days in the year to come.
    Despite the challenges in 2009, leisure travel remained a high 
priority for many. Consumers adapted their travel plans to fit the 
times. They spent less during their travels yet, the impact numbers are 
still impressive, with over $2.5 billion in direct travel spending 
generated for the state, which in turn generated $111 million in local 
and state tax receipts.\1\
---------------------------------------------------------------------------
    \1\ Source Dean Runyan and Associates, The Economic Impact of 
Travel on Wyoming, 1997-2008 Detailed State and County Estimates.
---------------------------------------------------------------------------
    And the good news for us is that visitors still came. While 
national leisure travel declined by 2 percent, Wyoming's visitation 
actually grew slightly in 2009 from 7.31 million overnights to 7.33 
million.\2\ National park visitation was at an all time high; 
Yellowstone National Park recorded 3,295,187 recreation visits last 
year, resulting in a 5 percent increase over the previously recorded 
high 10 years prior in 1999 when visitation was 3,131,381.\3\ And, 
Grand Teton National Park experienced a 4 percent growth in recreation 
visits over 2008.\4\ The correlation between tourism marketing and 
increased visitation to our parks is no coincidence. We spend millions 
to invite consumers to visit our national parks and immerse themselves 
in this unique experience. While other states were forced to cut back, 
we were broadening the Wyoming footprint.
---------------------------------------------------------------------------
    \2\ Strategic Marketing and Research, Inc. 2009 Wyoming Overnight 
Visitor Profile.
    \3\ National Park Service Public Use Statistics Office.
    \4\ National Park Service Public Use Statistics Office.
---------------------------------------------------------------------------
    As I mentioned earlier, I am also a member (treasurer) of the 
Western States Tourism Policy Council (WSTPC)--a consortium of 13 
western state tourism offices. The mission of the WSTPC is to support 
public policies that enhance the capability of travel and tourism to 
have a positive impact on states and communities in the West. Visitors 
to the national parks are a vital part of the tourism economy of each 
of these 13 WSTPC member states.
    The value of national parks to gateway communities, and vice versa, 
is also an important component in the tourism equation. National parks 
provide a product offering that serves as a lure for visitors and by 
accessing the parks through gateway communities, the economic value of 
tourism is boosted by the proximity of the national park. In turn, 
gateway communities provide much of the necessary visitor services such 
as accommodations, entertainment, shopping, outfitters and 
transportation, thereby relieving some of the pressure on the resource 
and thus enhancing the sustainability of the park itself.
    A 2006 study conducted by the National Park Service Social Science 
Program and Michigan State University Department of Community, 
Agriculture, Recreation and Resource Studies further corroborates this 
important reciprocal relationship. Out of 1.15 million person trips to 
the area in 2006, key research results \5\ include:
---------------------------------------------------------------------------
    \5\ Impacts of Visitor Spending on the Local Economy: Yellowstone 
National Park 2006, Michigan State University Department of Community, 
Agriculture, Recreation and Resource Studies.

  <bullet> 78 percent included an overnight stay, either in a motel, 
---------------------------------------------------------------------------
        lodge or cabin (54 percent) or camping (24 percent).

  <bullet> 16 percent of the campers stayed within the park while 7 
        percent camped within 150 miles of the park.

  <bullet> 30 percent of the motel, lodge or cabin overnights stayed 
        inside the park, 70 percent within the 150 mile region.

  <bullet> Total visitor spending within 150 miles of the park was $271 
        million of which one third was spent inside the park.

  <bullet> Over 90 percent of visitors indicated the park visit was the 
        primary reason for the trip to the area.

  <bullet> Including direct and secondary effects, the $271 million 
        spent by park visitors supported 4,952 jobs in the area and 
        generated $336 million in sales, $133 million in labor income 
        and $201 million in value added.

    Although this research was conducted 4 summers ago, the magnitude 
of the impact remains notable and is applicable to park visitors today.
    Last year, 68 percent of all summer airport travelers into Jackson 
Hole were Grand Teton and Yellowstone bound. Repeat visitation is high 
with 77 percent stating they will probably or definitely return for a 
future visit.\6\
---------------------------------------------------------------------------
    \6\ Jackson Hole Airport Board.
---------------------------------------------------------------------------
    Seeming somewhat recession proof, Cody, Wyoming near Yellowstone's 
East Gate, remained a viable community despite economic challenges 
elsewhere. Sales tax collection on accommodations actually increased by 
2 percent over 2008,\7\ attributed to the increase in visitation 
experienced in the park in 2009.
---------------------------------------------------------------------------
    \7\ State of Wyoming, Department of Revenue and Taxation.
---------------------------------------------------------------------------
    Throughout their entire system, Taco John's restaurants, a quick 
service Mexican chain headquartered in Cheyenne, Wyoming, experience 
seasonality of sales impacted by location and geography. The gateway 
markets in an around national parks and monuments, particularly in the 
Wyoming restaurants experience huge impacts on seasonality of sales. 
The Taco John's in Cody, Wyoming does 46 percent \8\ more business in 
the summer months than it does in the winter months. The Taco John's 
markets that pool their advertising dollars for publications like the 
Sweet 16 which focuses on U.S. Hwy 16 out of South Dakota to 
Yellowstone find it extremely beneficial to publicize the route to the 
Park.
---------------------------------------------------------------------------
    \8\ Marketing/Franchise Operations, Taco John's International, 
Cheyenne, Wyoming.
---------------------------------------------------------------------------
    These spikes in sales obviously provide jobs in these communities, 
provide the independent Taco John's franchisee his livelihood, and help 
to build chains like Taco John's into a 400+ regional business entity, 
which located in Wyoming helps the overall business diversity of our 
state.
Working with the National Park Service
    The Wyoming Office of Tourism has a good working relationship with 
the national parks within our state. I personally believe it is in our 
best interest to be proactive in cultivating a relationship with each 
park and its leaders. I enjoy working with both Yellowstone Supt. 
Suzanne Lewis and Grand Teton Supt. Mary Gibson Scott. However, due to 
our role as a marketing agency, most collaboration is done in 
conjunction with the park's concessionaires who have marketing budgets 
and a vested interest in marketing their particular park. Both Xanterra 
Parks & Resorts and Grand Teton Lodge Company have been proactive 
partners in marketing our national parks and the state of Wyoming. Our 
collaboration includes co-operative advertising, hosting travel trade 
and media fams (familiarization tours), providing product for 
sweepstakes and promotion efforts. Their executives serve in leadership 
roles at both the state and local level.
    Although the National Park Service adopted a very good national 
tourism strategy, its implementation and effectiveness have been 
limited, in part due to lack of funding but also due to lack of 
acceptance at the individual park level. If the budget for the National 
Park Service Tourism Office were increased to $1 million from no more 
than $200,000 at present, the office could work more closely with the 
travel and tourism industry and with gateway communities, and also to 
promote lesser known national parks. While the National Park Service 
was created to manage these public lands and provide responsible 
steward ship over their use, there often times appears to be an 
imbalance between protection and access and visitor services. It is my 
belief that visitors who personally experience these natural wonders 
are much more likely to have a deeper understanding about the resource 
and its importance to our world. Tourism provides a means of education 
to the greater public and plays an important role in the economic 
sustainability of parks and their surrounding regions. By effectively 
implementing their national tourism strategy, the National Park Service 
could be more proactive in shaping tourism development and associated 
impacts.
    Film projects are an integral part of tourism development. One of 
the challenges we face is access to the park or park resources. While 
the discrepancies in rules, applications and fees vary from park to 
park, the challenge stems more from the response to these requests. We 
fully understand/support fees being assessed for commercial projects 
and agree that their needs to be a process and system to protect the 
resource. However, the required wait time for a permit and the low 
priority in which these requests are given are counterproductive to 
customer service and the accessibility of public lands.
    In a proactive effort to rectify this situation, I am pleased to 
report that the Wyoming and Montana Film Offices are conducting a 
training session in West Yellowstone next month for Federal employees. 
We are bringing in a third party producer from Los Angeles to discuss 
how Federal land management agencies and film companies can work more 
cooperatively together. Film permitting staff from both Yellowstone and 
Grand Teton National Parks and the Shoshone and Bridger-Teton National 
Forests will be in attendance.
Travel Promotion Act
    It is true that our national parks are beloved by Americans but 
Yellowstone is clearly recognizable around the world. It is an American 
icon. It was most obvious in the summer of 1988 when wildfires raged 
and were the top news stories everywhere. The worldwide concern over 
the health, wellbeing and future of Yellowstone was paramount. In fact, 
it was so profound that in September 1988 the Federal Government, under 
the then Dept of Commerce USTTA, organized and paid for a coalition to 
travel to Europe to meet with travel agents, wholesalers, operators and 
media in London, Frankfurt and Paris to address their questions and 
concerns and assure them that Yellowstone was intact and visitors could 
indeed still experience the wonders of this national park.
    Just spend an afternoon at Old Faithful or hang out in the lobby of 
Jackson Lake Lodge and you will personally know that these parks are 
revered by cultures from around the world. Clearly a tourism 
opportunity to promote our national parks as travel destinations to 
international visitors.
    Thanks to the support and work of this committee particularly, 
Senators Rockefeller, Klobuchar, Dorgan and Ensign, the Travel 
Promotion Act was approved by Congress and signed into law on March 4th 
of this year.
    The bill creates a nonprofit Corporation for Travel Promotion to 
better communicate our security policies and promote America as a 
premier travel destination. It will help address the sharp decline in 
the number of international visitors the United States has experienced 
since 2000.
    The fact is that the world travel market is expanding but our share 
is shrinking. According to the U.S. Travel Association, of which I am a 
member, the U.S. welcomed 2.4 million fewer overseas visitors in 2009 
than in 2000. Had we kept pace with the growth in international long-
haul travel since 2000, the U.S. economy could have gained an 
additional $509 billion in spending.
    Yet, overseas tourists are going elsewhere and the reason is 
painfully simple; we haven't made a coherent effort to tell America's 
story--to say to legitimate foreign visitors that they are welcome here 
and that we are working every day to improve the entry experience for 
them.
    We need look no further than last year's selection process for the 
2016 Olympics. In explaining his vote against Chicago, an IOC member 
from Pakistan went out of his way to note that going through the entry 
process in the U.S. can be a harrowing experience. President Obama 
responded by offering ``a reminder that America at its best is open to 
the world.'' The President was right.
    The new Travel Promotion Act will go a long way to ensuring that 
the world views us as we really are, ready to welcome those who want to 
visit us and tour our national parks. And by attracting millions of new 
international travelers, the public-private partnership established 
under the new law will help generate $4 billion annually in new 
revenue, create 40,000 new jobs and generate $321 million in new tax 
revenue each year for the U.S. economy.
    As the Federal Government moves to implement the Travel Promotion 
Act, it's critical that two issues receive immediate attention. First, 
funding for the new Corporation for Travel Promotion must be secured as 
quickly as possible. This year, the Corporation is eligible to receive 
$10 million in startup funds from the U.S. Treasury. The funds are 
needed to form the Corporation, hire staff, develop marketing plans, 
lease office space and conduct activities that will allow the 
Corporation to credibly and successfully secure voluntary industry 
financial investments in year two. Without this initial transfer of 
funds, there is a great risk that the Corporation's efforts will be 
undermined from the outset.
    I know the Committee is aware of this concern and is working with 
the Departments of Commerce and Homeland Security to determine the best 
path forward to provide the $10 million transfer to the Corporation 
before Oct. 1. I thank you for your efforts to date and urge you to 
continue to work toward a successful resolution to this issue.
    Second, a new effort is needed to provide the new Corporation for 
Travel Promotion and every state in America more reliable and valid 
data on where international visitors travel when they visit the U.S. 
Unfortunately, today, states like Wyoming are considered statistically 
insignificant and therefore we have no reliable data on the volume of 
our international visitors, their country of origin or the estimated 
economic impact to our state. This information is a fundamental 
component necessary for any international marketing campaign.
    Without more reliable and valid data, the new Corporation for 
Travel Promotion will be unable to successfully target its marketing 
resources to attract more visitors, and states like Wyoming--which will 
be asked to provide matching in-kind and cash fund--will be unable to 
justify additional investment in the overseas markets as they cannot 
justify their existing investment based on the current lack of critical 
volume and spending data.
    It is my hope that this committee will work together with the 
Commerce Department and the states to achieve the collection of 
international traveler data that provides valid and reliable data for 
each of the 50 U.S. states and the five U.S. territories.
Presidents Initiatives on Travel and Tourism
    Like many others, we are very encouraged by this Administration's 
interest in this industry as an economic driver for America. The recent 
``America's Great Outdoors Initiative'' is of particular interest to 
Wyoming, as was the passage of the Travel Promotion Act. We fully 
understand the value of travel as a means to provide immediate economic 
stimulus and look forward to doing what we can to support efforts to 
assure a healthy and prosperous future for Wyoming and the United 
States.

    Senator Klobuchar. Thank you very much.
    Mr. Butcher.

            STATEMENT OF CLYDE BUTCHER, PHOTOGRAPHER

    Mr. Butcher. Is that turned on? Am I turned on?
    Well, thanks for inviting me. This is a little different 
than the swamp.
    I've lived in Big Cypress for 18 years, and had a gallery 
there. I'm surrounded by over a million acres of Everglades 
systems plus Everglades National Park, to the east, and the 
south. Big Cypress is one of the main filters for the Big--for 
the Ten Thousand Islands.
    When my son was killed by a drunk driver, it was the 
wilderness that I fled to, to get my equilibrium. Wilderness is 
a spiritual necessity, I think, for all humans. In--after many 
years of photographing the Everglades and around the country, I 
was asked to do a traveling show of America, by William and 
Mary College in Virginia. It's called ``America the 
Beautiful.'' It's now a traveling exhibit. It just finished in 
St. Paul. And also, the Friends of Acadia National Park, we 
created ``America National Park'' exhibit, which is also 
traveling, which is opening in Indiana this week.
    This is my way of actually getting people interested in the 
parks. I think these exhibits, along with Ken Burns' film on 
the national parks, has generated a new interest in our park 
system. It's exciting. I'm sure I can say, for both Ken and I, 
that it is our desire to keep the parks healthy and strong. I 
believe we have achieved success by making people aware of the 
beauty and the unique history of our country, and to save those 
important wilderness areas for our future generation.
    One of the most important ways to get people to the parks, 
unfortunately, is advertising. Advertising--needs to capture 
the essence of the park. It has been my experience that when 
imaginative people invoke the beauty and adventure the people 
will have in the parks, they will fall in love with the parks 
and want to experience them for themselves.
    Therefore, the advertising needs to be done by someone who 
knows and understands the ecosystems of the parks should have 
control of the advertising. Giving jobs to the lowest bidder 
rarely achieves this kind of success. Often, the lowest bidder 
lives in some other State, has no idea what the real park is 
about. So, in order to get high quality imagery to achieve 
visitors, a budget needs to be created to lure people, for the 
advertising, and not a low bid.
    When choosing a company for the park, a panel from the park 
should be working with the ad agencies and to feel which ones 
are the right people for that purpose. The superintendent 
should be totally involved in this process. And the OK for the 
job should not come from the--outside his or her park, it 
should come from the superintendent of the park.
    I believe this process should be started using a very few 
parks--this is the unknown parks, not like the Tetons; 
everybody knows about the Tetons. And that's a great--I mean, I 
love the Tetons; I learned some interesting things while I was 
there. But, if you do do that, I think you should pick a few 
parks, to experiment. And so, you spend a good amount of money 
on those parks so that you can actually do something with those 
parks.
    So, anyhow, the--so, those unknown parks then would be 
experiencing more visitors, I would hope, so you're going to 
need more funding. So, you've got to think about the funding 
for those parks, to help the park give those people a good 
experience.
    We all talk about bringing peace to the world. I could 
think of no better way to encourage peace than encourage people 
from all over the world to enjoy the spiritual sanctuary of our 
national parks.
    [The prepared statement of Mr. Butcher follows:]

           Prepared Statement of Clyde Butcher, Photographer

    For 18 years, I have owned a gallery and home in Big Cypress 
National Preserve surrounded by over a million acres of the Everglades 
ecosystem. When my son was killed by a drunk driver it was to the 
wilderness that I fled to regain my serenity and equilibrium. 
Wilderness is a spiritual necessity and for that reason I feel 
compelled to give my opinion here today.
    In 2005, I began a project of photographing America for a museum 
exhibit at Williams & Mary College in Virginia. ``America the 
Beautiful'' is now a traveling exhibit. From that exhibit the Friends 
of Acadia National Park created ``America's National Parks,'' which is 
also a traveling exhibit. These two exhibits, along with Ken Burn's 
film on the National Parks, has generated a new interest in our Park 
system. It is exciting. I'm sure I can say for both Ken and I, that it 
is our desire to keep our Parks healthy and strong. I believe we have 
achieved success by making people aware of the beauty and the unique 
history of our country to have saved those important wilderness areas 
for future generations.
    The most important way to encourage people to visit our National 
Parks is through advertising. Advertisements need to capture the 
essence of the park. It has been my experience that when imagery evokes 
beauty and adventure, people will fall in love with the park and want 
to experience it for themselves.
    Therefore the advertising needs to be done by someone who knows and 
understands the ecosystem of the park they are advertising. Giving the 
job to the lowest bidder rarely achieves that kind of success. Often 
the lowest bidder lives in some other state and has no idea what the 
``real'' park is about. So, in order to get high quality imagery to 
entice visitors, a budget needs to be created that can lure good 
advertisement agencies to apply.
    When choosing a company for the job, a panel from the park that the 
ad will be about should look at the work of the agency to see if it 
feels ``right'' for their purpose. The Superintendent should be totally 
involved in this process. The ``OK'' for the job should not come from 
outside his/her park. It should come from the Superintendent of the 
park,
    I believe this process should be started using just a few parks to 
see what the response will be. It would be better to spend a greater 
amount of money on the ads for just a few parks, rather than ``bare 
bones'' for many. The quality of advertising would be better and 
therefore the response better. When the results are in, then a larger 
advertising effort can be created.
    National Parks that are ``unknown'' are also underfunded. If the 
ads succeed (and I believe they will), then in order for the experience 
of the visitor to be a good, the park will need to be funded 
appropriately. The object is for the visitor to share their fun stories 
with friends, who will then also want to visit the park. We don't want 
them to have a bad experience in the park. Because the ads will be 
bringing more than the normal amount of people to the park there will 
be a need for more people on the park staff in order to deal with the 
increased number of people in the park.
    We all talk about bringing peace to the world. I can think of no 
better way to encourage peace than to encourage people from all over 
the world to enjoy the spiritual sanctuary of our National Parks.

    Senator Klobuchar. Thank you very much----
    Mr. Butcher. Thank you.
    Senator Klobuchar.--Mr. Butcher. I really appreciate it.
    Mr. Bacher.

        STATEMENT OF SCOTT BACHER, OWNER AND OPERATOR, 
                    CARLSBAD KOA, NEW MEXICO

    Mr. Bacher. Thank you, Madam Chairman. Thank you, Madam 
Chairman.
    It has been an honor and a blessing to be here. I'm coming 
as a private corporation, private small business, to tell you 
about how the national parks drive our business. It is not just 
driven; it ``is'' the business. We're--90 to 95 percent of our 
attendance comes from the national parks. In particular, 
Carlsbad Caverns, which is right there, but we have, also, so 
many other--White Sands Missile, White Sands Monument--we have 
a tremendous amount of other things to see, that--when you're 
there. So, the national parks is our business.
    I didn't start in this business. I was a contractor in New 
York. I built jails and schools for a living. So, I've always 
been in the accommodations business; they just never wanted to 
be there.
    [Laughter.]
    Mr. Bacher. My wife and I, when we got rid of our business 
in New York, we traveled the country, and we viewed over 100 
parks, from Cape Cod to Oregon, looking for just the right 
site, saying that we would never be in the Southwest, because 
it was too hot. We ended up there. It has been a phenomenal 
business.
    In the, when we bought the business, we had less than 
19,000 visitors a year in our park. Last year, we topped over 
50,000 and--doubling our--more than doubling our business and 
our gross income, and consequently, our taxes to the system.
    So, we have a great corporation, a great business. KOA has 
helped us along the way. The national parks drive so many 
different things. The gateway communities, that everyone has 
talked about, is really the key, but it starts so much further. 
It starts when they decide to be an RVer or to come vacation at 
a park. It comes from Indiana, when they build new RVs; or 
Detroit, when they build new trucks; or the airlines, when they 
come across in self-flights to fly into--to rent different RVs 
across the country. It's just--just an amazing business to us, 
and driven by people that want to reunite with the national 
parks.
    In the trend of--that we've seen in the KOAs is that the 
grandparents are now taking the grandchildren. We've seen a--
just an unbelievable amount of grandparents, with one or two 
grandchildren, coming across the park, and it has been a great 
thing to see.
    We run a high-end park in New Mexico. It is the top park in 
New Mexico. And there are 12,000 campgrounds in the country of 
the United States. We're in the top 300. So, we run a real 
high-end park, which people enjoy to be--with all the 
amenities--because the national parks don't offer, I mean, they 
offer the sites, but they don't have the parks to support to 
the big RVs, which we come into, and many, many other RV parks 
in the area.
    As far as foreign countries, in our park last year we had 
17 countries--visitors from 17 countries. But, another 
interesting number is--back in 2006 or 2007, when we bought the 
park, the average stay in our park was 2.2, now it's up to 3.57 
days per stay, which mean people are coming to enjoy areas in 
the national parks in the--across the country; they're not just 
coming for 5 minutes and then leaving. They're seeing many 
sites, many particular areas, and they're spending a lot more 
money across the country to get there, and to enjoy the parks 
once they are there.
    Like--as I said, the--our community of Carlsbad Caverns had 
only 430,000 customers, last year, come in, and it's starting 
to rise up again, and we believe that, with increased roads--
better roads and better advertising--the advertising, I think, 
is--personally, is going to be the driving factor to make the 
national parks attractive to foreign customers and to different 
people on--as the baby boomers reach, and want a vacation, to 
get back to the roots, see Yellowstone and, hopefully, Carlsbad 
Caverns, and many different sites all over the country.
    The other way that we really work with the gateway--as a 
gateway community is with our Chamber of Commerce, and that's 
the organization that wanted me to come here. I've been so 
impressed with our Chamber, who meets every Friday. We have a 
breakfast with our businesspeople, and the national parks are 
there every week, and along with the State parks. And we 
converse. We talk about different activities, every Friday. And 
it's--and it really does seem to help. We don't--when one of us 
needs a plumber or any kind of a service, we don't go to the 
white--or, the Yellow Pages, we go to the Chamber of Commerce 
and find out who's in that area. And the national parks are 
right there with us. Since they can't advertise, they work very 
closely with us in our Chamber of Commerce to explain--last 
week was our National Free Week for national parks; I believe 
it was all over the country. And they really promoted that, 
and, in turn, telling us, we promoted it with our customers. 
So, it's been a great cooperation, and we enjoy being there, 
and it's been a great business.
    I hope I never have to go back to being a contractor again. 
I really enjoy this.
    So, thank you for your time and energy, and thank you very 
much.
    [The prepared statement of Mr. Bacher follows:]

        Prepared Statement of Scott Bacher, Owner and Operator, 
                        Carlsbad KOA, New Mexico

    Madame Chairperson (Senator Klobuchar), distinguished members of 
the Committee, thank you for this opportunity to provide testimony on 
this important subject.
    My wife and I own a KOA campground north of Carlsbad, New Mexico. 
Carlsbad Caverns National Park is the main tourist attraction in the 
area. About 90-95 percent of my customers are there only because they 
are going to the Caverns. There are several other attractions in the 
area, such as state parks and the national forest, that may keep them 
in the area, but it's the Caverns they come to see.
    You can probably tell from my accent that I'm originally from New 
York. I purchased Carlsbad KOA in 2007 after looking at over 100 
locations. I wanted a place near a national park so I felt secure in 
the cash-flow. I have been very fortunate to have a successful business 
that has doubled in 4 years. Carlsbad KOA is rated the top KOA in New 
Mexico and in the top 300 of over 12,000 campgrounds in the Nation. 
Business has been so good for us that we encouraged our daughter and 
family to move down and help us run the business. If you want to know 
more about our operation, please visit our website at 
www.CarlsbadKOA.com.
    I was told to address what impacts the national park has on my 
business. A direct benefit, of course, is that the world famous site 
draws visitors who spend money on lodging, food, and other services. At 
Carlsbad KOA, we have about 50,000 visitors every year. Most of them go 
visit the Caverns which had over 432,000 visitors last year.\1\ From 
this steady income, we were able to build the business from 19,000 
customers in 2007 to 50,000 last year. Indirectly, we benefit from the 
parks' impact on the local economy, such as the hospitality industry 
employing and spending money locally. The park helps make the area a 
better place to live. An economic study done in 2002 by Michigan State 
University states,
---------------------------------------------------------------------------
    \1\ Data from CCNP made up of the sum of ticket sales, an 
additional 10 percent for those who don't enter a cave, and backcountry 
permits. 15 year average is 460,000 visitors annually.

        ``Including secondary effects from the circulation of the park 
        payroll and visitor spending through the economy, the total 
        impact of the park is almost 1,000 jobs and $17 million in 
        income in the county.'' \2\
---------------------------------------------------------------------------
    \2\ Economic Impacts of Carlsbad Caverns National Park on the Local 
(Eddy County, NM) Economy, 2002; Daniel J. Stynes, Michigan State 
University; February 2003.

    Looking to the future, I feel positive that good changes are 
coming. In the near term, I think that the baby boom generation will 
continue to travel to national parks in steady numbers, which means a 
dependable income for me. At the local level, we will be happy when the 
four-lane highway construction is completed that links Texas and 
southwestern states to this corner of New Mexico. Our roads have not 
been in good condition making RV drivers unhappy or uneasy. Good roads 
mean travelers are more likely to come and stay longer. The park also 
has construction going on right now designed to make the roads and 
parking lots better and safer. Last, there is currently a campaign to 
beautify Carlsbad. As a gateway community, to both the national park 
and my business, having a welcoming, clean town is critical for 
visitors overall perception of the area. As Carlsbad becomes more 
attractive to visitors, there is a greater chance they'll stay longer 
and spend more.
    I look forward to these improvements, but there are other issues 
that need attention. The most critical to me is the need for the parks 
to advertise, or raise awareness of what they are and have to offer. 
National parks are great places to connect with our national heritage 
and nature and to reconnect with family and friends. I understand the 
restrictions that the parks can't advertise directly, but perhaps there 
could be ways to support businesses or help organizations, like the 
local Chamber of Commerce, advertise the parks. Second, there needs to 
be tourist friendly businesses in the area. This could be another 
awareness issue, but directed at gateway communities and business 
owners. How much money do we lose because the service wasn't good or 
the town looked uninviting? Finally, we need to attract more foreign 
visitors. Carlsbad Caverns National Park is a World Heritage Site. 
That's like naming it the eighth wonder of the world. We should 
capitalize on this designation and boost the chances of other national 
parks gaining the designation. For example, I've heard that White Sands 
National Monument has been nominated to be a World Heritage Site.
    The collaboration between Carlsbad Caverns and KOA has been great. 
For instance, the national park makes their literature readily 
available which keeps customers informed and interested. Also, the park 
offers free programs that cannot be experienced elsewhere. For example, 
I love being able to tell visitors about the bat flight program that 
happens every night in the summer. The visitors have a great time if 
there are a lot of bats or not. It's one of those rare things to do 
unlike anything they'd find at home. Most often, I meet park staff 
through the Carlsbad Chamber of Commerce. The Chamber has a networking 
breakfast every Friday and we see each other at the local Tourism 
Council meetings. Last, I was invited to speak at a park-hosted 
conference for local business owners and community leaders to 
conservation efforts, ``green'' practices, and recycling because at the 
campground we have a wind powered generator and solar panels.
    In summary, let me say that the park's impact on me and my business 
is significant. I know that if the national park closed for good 
tomorrow my business would dry up and blow away. I count on the Caverns 
to be there and provide the excellent services that they do and on 
having such as great working relationship with them.
    Again, Madame Chairperson, distinguished members, thank you for 
allowing me to present testimony on this issue.

    Senator Klobuchar. Well, thank you so much. That was a 
great way of describing how the two work together; and that the 
parks people actually go to your chamber meetings is 
interesting, as well.
    We're going to start with questions now. Senator LeMieux 
will go first. I'm going to step out for just 5 minutes.
    He's promised me, Mr. Ward, that he won't do a major cross-
examination of why the Everglades has more business than 
Voyageurs.
    [Laughter.]
    Senator Klobuchar. So, I think you're going to be OK.
    Mr. Ward. Thank you.
    Senator Klobuchar. All right.
    Senator LeMieux [presiding]. Thank you, Madam Chair.
    I wanted to start off with you, Mr. Shafroth, and talk 
about what we can do better, in terms of advertising our 
national parks. And is it true, now, that the national parks 
can't directly advertise on their own?
    Mr. Shafroth. Mr. Chairman, I actually don't know if 
there's a legal impediment to the Park Service being able to 
advertise on its own. I could certainly get you that 
information or even ask our solicitors that question.
    Mr. Shafroth. It's a good question. I think--you know, I 
made a comment, earlier in my testimony, about the impact of 
Mr. Burns' film. I know there was a huge increase in the 
visitation to Civil War battlefields, and--after your film on 
the Civil War--and we certainly expect and uptick. I think 
there were nearly--Ken, tell me, was it 35, 36 million people 
in the first round?
    Mr. Burns. Yes.
    Mr. Shafroth. And something more, on the second round of 
the showing. So, I think we're going to see a higher level of, 
certainly, knowledge about, and interest in, national parks 
coming from that, and I think that's something that we ought to 
continue to--you know, through the National Park Foundation and 
other--our friends, organizations that we work closely with at 
the Park Service, to figure out ways to promote those 
activities.
    The National Park Foundation also does have sort of a 
capacity-building program, where they help organizations that 
are friends of our national parks, which do have--don't have 
the kind of limitations that the Park Service has, in terms of 
promoting activities in the national parks. So, we--again, the 
Park Service has a very close relationship with the National 
Park Foundation and those friends groups. It's probably the 
most effective way to getting the word out.
    Senator LeMieux. Well, I'd like for you to check on that. 
It is my understanding that there is not direct advertisement 
by the national----
    Mr. Shafroth. Right.
    Senator LeMieux.--parks. And I think that--you know, 
especially with what we have to offer, that it makes a lot of 
sense. I mean, if we're going to get more dollars back than it 
costs to advertise, which we've found in other experiences, I 
think that that's something that we should look into.
    Mr. Shafroth. OK
    Senator LeMieux. And it makes sense, what Mr. Burns and Mr. 
Butcher and others have done to show and depict what these 
parks look like. We've talked about, often, when folks are 
coming into this country to visit, the Customs/Homeland 
Security experience is not, sort of, the best welcome to the 
United States. And we've talked about the fact of showing 
movies of the country, and, maybe excerpts from Mr. Burns or 
pictures from Mr. Butcher, that just, you know, give a 
depiction. So, whether they're on this trip, they could go to a 
national park or they think, ``Wow, next time I come, maybe 
I'll make a national park as part of my trip.'' I think that 
we've got a great opportunity to market to the people who are 
coming to this country, potentially for completely different 
reasons, to get them to go to our national parks.
    Mr. Burns, what thoughts do you have on what we could do 
better to promote our national parks? You've done a tremendous 
job of doing that on your own.
    Mr. Burns. Well, I agree that it needs an extra helping 
hand. Remember the high school philosophy class, where you were 
presented with the notion that, if a tree fell in the forest, 
and a human being didn't hear it, did it make a sound? Making a 
decision on that is way above my pay grade, but I know if you 
make a good film and no one knows it's on, it's not a good 
film. If you've got a good park, and no one knows it's there, 
it's actually not a good park. And I think that we really have 
to accelerate our efforts.
    We--on our limited scale--are making a huge effort to reach 
out to international broadcasts of our film, to attract the 
foreign visitors. You stand at the rim of the Grand Canyon, and 
you will hear German and Japanese as the primary language, 
followed by English, Spanish, French. We know the potential is 
there to increase it, and I think that we can require our 
government to take more steps to coordinate those activities.
    Just one anecdotal thing related to our Civil War series. 
The State of Virginia, after the broadcast in 1990--original 
broadcast of our series--bought, sort of, advertising rights, 
or promoting/sponsoring rights, on the BBC showing of the film, 
the second year, and had tens of thousands of identifiable 
British visitors that came to the United States specifically to 
visit Civil War battlefields, mostly in the State of Virginia, 
and were incredibly encouraged by that; and, as a result, 
helped to fund another film of mine on Thomas Jefferson. We 
have then, subsequently, gone out to various States to partner 
with them and the public television underwriting of the films 
that we've done and seen, with ``Jazz'' in Louisiana and other 
states, a kind of concurrent uptick in visitations at those 
places. So, we can only assume that it takes some gold to get--
to make some gold, to find some gold.
    Senator LeMieux. That's well said.
    Ms. Shober and Mr. Ward, I wonder, too, that--it was 
mentioned about, advertising to folks in your State, as well as 
people in America, to stay--we call them ``Staycations'' in 
Florida--and we've had a lot of success, in Florida, with our 
Visit Florida enterprise, to get people, especially in a 
difficult economy, to stay and visit our parks and visit our 
amenities in Florida. Do you think that that's something else 
that we should be emphasizing?
    Mr. Ward. Well, I think in the case of Minnesota, we all--
in Minnesota, we have fairly young sites, still. So, we're 
still evolving and we're still growing, in a sense, compared to 
some of the park sites across the Nation. And so, I think we 
are at the point where we're kind of at an apex of being able 
to move into a greater awareness in the communities of ``just 
the State.'' And we tried to that with the Twin Cities public 
television film that we created, that would go in concert with 
Mr. Burns' film, because in the State of Minnesota, there are a 
lot of folks that don't even--that aren't even aware of the 
seven sites; there are actually two affiliated sites, also, and 
trails. And so, I think, in the case of Minnesota, we're 
actually at a very young age, and we're going to keep moving; 
and the things that we're working on now, are working; and 
we'll see some successes from that.
    Ms. Shober. Madam Chair and Senator LeMieux, from the 
standpoint of Wyoming, advertising a ``Staycation'' doesn't do 
us much good, just by the sheer size of our population. And so, 
we really had to focus, this year--while other States' tourism 
offices did take that approach, we certainly still had to--and 
we were fortunate enough to have the budget with which to do 
it, but we had to maintain our national efforts, and even on a 
regional basis.
    But, I certainly know that, in other parts of the country, 
my counterparts are focusing on that, and the national parks 
serve as a great venue for--they've always been a good-value 
vacation. And that's what we continue to promote in Wyoming, is 
that you can come, it's an affordable family vacation, and it's 
an experience that you can--it's a bonding time together; so, 
not only are you having great value financially, but there's a 
great value for memories and building families and time 
together.
    Senator LeMieux. Thank you.
    Thank you, Madam Chair.
    Senator Klobuchar [presiding]. Senator Begich.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you, Madam Chair.
    Thank you very much for all being here.
    And, Madam Chair, thank you for giving the precursor that I 
would not brag about how big our State is, that we have eight 
of the largest top 10 national parks----
    [Laughter.]
    Senator Begich.--that we have the tallest mountain, that we 
have a million lakes----
    [Laughter.]
    Senator Begich.--we have three-quarters of coastal----
    Senator Klobuchar. But it's not on your license plates.
    [Laughter.]
    Senator Begich. It's--we are called ``The Last Frontier''--
well, it's too big to put on our license plate----
    [Laughter.]
    Senator Begich.--too many zeros. So----
    But, thank you for hosting this hearing.
    And thank you all for being here.
    I want to follow up Mr.--the Senator from Florida's--
LeMeiux's--comments on advertising, because your point is a 
good one; and that is, the national parks is--what I 
understand, there is one person--and I don't know who could 
answer this, but I--there's one person who actually handles, 
within National Park Service, all the tourism activities, or is 
in charge of it. That's it. So, how do we get more aggressive--
I recognize that the groups who are off, decide--who are 
helping--but, if we have just one person in this mega-
operation, in the sense of our asset, maybe not as much money--
Mr. Butcher, your comments, too, about the resources--you have 
to have the resources. But, we have the product. That's the 
good thing.
    Mr. Butcher. We definitely do.
    Senator Begich. We have great product,
    Mr. Butcher. Yes.
    Senator Begich. But, we, maybe, lack the ability to market 
our product. Without marketing, people don't know about it. I 
mean, I traveled, in August last year, with my family. We drove 
from Alaska to here. We went to Wyoming. We went to Cody, saw 
the rodeo. We went to Yellowstone. We went all the way through. 
We drove, 19 days, across the country to see our national park 
system and visit many of the small towns and communities. But, 
if you're not marketing, then it doesn't matter; people won't 
come, because they don't know it.
    So, give me, first--anyone's comment--one, Should the 
National Park Service have an advertising budget that's 
aggressive? Two, I think this second one is an easy one--Should 
they increase from one person to more people to do the 
marketing? I think that's a given. And how much do you think we 
engage with young people, the next generation, to engage in our 
park systems? Whoever wants to start with that.
    Mr. Butcher?
    Mr. Butcher. Well, I--let me answer your--Mr.--Senator 
LeMieux's question. The park can't advertise. They can't do 
anything political. They're the park. That's it. So, this 
corporation, that's outside the park, sounds like a good idea, 
so that can happen.
    Senator Begich. Can I hold you there?
    Mr. Butcher. Sure.
    Senator Begich. Advertising isn't political, so let me----
    Mr. Butcher. No.
    Senator Begich.--other than when we're running them.
    [Laughter.]
    Senator Begich. But, they can't, because Congressional 
efforts restrict them, probably.
    Mr. Butcher. Oh, OK. Yes.
    Senator Begich. One thing I learned about coming here, a 
year and a half ago, is, we make the laws. So, if there's----
    Mr. Butcher. Right.
    Senator Begich.--a law prohibiting it, we should think if 
the law is logical. And if it's not----
    Mr. Butcher. Yes.
    Senator Begich.--logical, we should consider changing it.
    Mr. Butcher. Yes.
    Senator Begich. But, let's assume that--if they could 
advertise, should they?
    Mr. Butcher. Oh, well, I've--you know, how many people have 
been to Delaware Gap? Gorgeous place. Within 35 miles, 100 
waterfalls. Probably one of the most pretty parks in the United 
States. Now, I mean--yes, we have to. I mean, no--you have--
but, you--when you do advertise, you have to get the spirit of 
the park.
    Senator Begich. Right.
    Mr. Butcher. You know, you can't just send somebody out 
there and take a few pictures. It's--the spirit of the park is 
not an easy thing to get.
    I'm thinking that one of the things you could advertise is, 
in D.C., in the Smithsonian. I mean, people from all over the 
world come to the Smithsonian.
    Senator Begich. Good idea.
    Mr. Butcher. I mean, to me, that would be a permanent--
advertising that you can--that doesn't go away. I think that 
kind of advertising would be kind of nice; you can develop--
that it's there. I mean, when you do an ad on television, it's 
there for 30 seconds, and it's gone. But, if you have it in the 
Smithsonian or somewhere in D.C., where all these people from 
the world come, I think that would be a great way to advertise; 
would be here in D.C., the heart of the country.
    Senator Begich. Thank you.
    Anyone else wish to comment?
    Mr. Shafroth. Mr. Chairman--Madam Chair, Senator Begich, 
you make some very good points. I want to make--respond in 
three different ways.
    First is, I think we have to do a much better job, through 
our website and the new media that's available, and how people 
are communicating today, especially our young people, to 
connect with them in ways that they are listening for and 
gaining--gathering information. And I think our Department and 
our National Park Service website is beginning to do that; 
we're beginning to get smarter about how to do that.
    Second, I think, you know, while there may not be official 
advertising--you've heard the gentleman from Carlsbad Caverns--
there are these relationships, at every park, with the 
community, with the gateway communities, with businesses. And 
so, I think that cooperation and collaboration is happening. 
Could it happen more aggressively? Well, certainly--possibly, 
we could do that.
    And the third question you had, relative to young people--
it absolutely is a--it's the future, we have to do it. I think 
it's one of the great benefits of what Mr. Burns did with the 
film, but we--it was mentioned earlier, the President spoke, 
about 10 days ago, at the America's Great Outdoors conference. 
And he spoke directly to the need for us, as a country, to 
reconnect our citizens, especially our young people, with the 
out of doors and with the natural world. And Secretary Salazar, 
Secretary Vilsack, Chair Sutley, and Administrator Jackson are 
working together to develop a broad-based initiative to go out 
and both listen to the people of this country about their ideas 
on that, but also to bring forward to the President some 
recommendations about how we do that.
    So, I think you'll be hearing more from us on that subject, 
because it's our greatest challenge. If we don't reconnect the 
next generation to our national parks, our national forest, our 
other outdoor resources, then we're not going to have the 
opportunity to build for the future.
    Senator Begich. Great, thank you very much.
    Thank you, Madam Chair.
    Senator Klobuchar. Thank you.
    Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you.
    Senator Klobuchar. From the beautiful State of Washington.
    Senator Cantwell. Thank you, Madam Chair. And thank you for 
holding this hearing, and to Senator LeMieux, for being here, 
as well. They are important issues.
    And I appreciate all of our witnesses here.
    And, Mr. Burns, thank you for your documentary and 
inclusion of, I think, at least one of our parks in Washington 
State----
    Mr. Burns. Yes.
    Senator Cantwell.--and the history of that. I think we get 
something like $250 million a year from nonlocal visitors to 
our parks. So, you can easily say it's big business in 
Washington State.
    But, I was curious, out of your documentary experience, how 
do you think we might continue to educate people from the 
history and the information? The reason why I'm saying this, 
sitting on the Energy and Natural Resources Committee, a lot of 
the legislation to either create new parks or create national 
scenic areas, what have you, always come with this question of 
an interpretative center. A few people will say, ``Well, what 
do we want to do?'' ``Well, let's create an interpretive 
center,'' or, ``Let's explain,'' you know, why we have----
    Mr. Burns. Yes.
    Senator Cantwell.--legislation, that we were successful in 
implementing, that commemorates the Ice Age Flood Trail, all 
the way from Montana, you know, through to Washington State. 
Yet, you know, it's hard to explain something like the history 
of the Ice Age Flood, but yet there's so much information 
there.
    Did that experience of the documentary give you ideas about 
how we might take the information for so many of these special 
places, and present them to the public?
    Mr. Burns. Well, I think, in answer almost to all the 
questions today, we've got several opportunities. One, I think, 
is some coordinated national effort. I'm so heartened to hear 
what's going on in Carlsbad, but we don't hear about that; and 
we need to have a kind of top-down advertising that would help 
let people know about the glories, not just here in the United 
States, but elsewhere. That's usually important.
    But, a huge component, I think, in answer to your third 
question, sir, and to your excellent question, is education. We 
have to begin, in the schools, to tell stories, to teach the 
history of this.
    We were stunned to find out about Stephen Mather, who was 
this great promoter of the national parks, who almost willed 
the National Park Service into existence by the sheer force of 
his passion and energy. And then, relentlessly, spent every day 
of the rest of his life passionately defending those parks 
against the inevitable conflicts that come up about their very 
existence, but also educating people.
    And, I think that, in some ways, we've abdicated that. 
Perhaps in a rush to be able to explain, in any specific place 
with a visitor's center, about this event or that event, we may 
have missed the forest for the trees, here. And I think we've 
got an enormous resource--economic resource, but obviously a 
great educational one, as well. And I think that these are not 
incompatible, and that we need to coordinate not only a sort of 
top-down advertising with the bottom-up sense of how we reach 
our children with the stories of the glories.
    Most people don't realize that they--that we are all co-
owners of the most spectacular waterfall on this continent, the 
greatest collection of geothermal features, and the grandest 
canyon on Earth, and that this shared ownership has very 
limited responsibilities. We ought to go and visit them once in 
a while, to make sure they're being taken care of, and we ought 
to pass them down to our posterity unimpaired.
    Senator Cantwell. I appreciate your thoughts--I think we 
need to explore more--you know, the little interpretive trail 
sign on the side of the road just isn't enough----
    Mr. Burns. It is not enough.
    Senator Cantwell.--in today's Internet Age, to say that 
that's what we're going to do to commemorate, not just the 
specialness of these places, because that grandeur can be seen 
when people go there, but the history that goes along with it, 
in its creation and sense, and whether it's the Olympic 
National Park, and how it was created or, you know, the history 
of Mt. Rainier. I mean, there's a lot of history in all of 
that.
    Mr. Burns. May I just add something very briefly--is that I 
think that we're all concerned by what we see is the virtual 
world that so many of us live in and can't live without; and 
that, in some ways, we've replaced the virtual experience with 
actual experience. And we can rub our hands and lament this. 
It's a fact of our lives, and all of us here are either in the 
process of consulting our BlackBerries, or will shortly do so.
    Nonetheless, what the parks represent are real experiences. 
And they're real American experiences, tied to a vast 
geological history, and tied to a more immediate national 
history.
    And the parks have done a superb job in gathering together 
the threads of that political/military/social history, along 
with the grand geological history. And this is a huge resource 
of incalculable value as we go forward. And I just think we 
need to marshal that, and remind people, through these social 
medias and other things, how real experience can affect them. 
The kind of things that Wyoming is doing to connect, 
emotionally, to the generational thing is what we found in 
every person that we spoke to. ``My dad,'' they'd always start 
a conversation, or, ``My mom,'' or ``My grandma took me.'' And 
all of a sudden you realize, you're not just talking about the 
``thing,'' as you stand on the rim of the Grand Canyon, 
perceiving the incredible power of the Colorado River to carve 
out Precambrian Vishnu Schist that is half the age of the 
planet; you're also very much concerned with whose hand you're 
holding. And that's a huge element, I think, in how we should 
``sell'' this, if that's the correct word.
    Senator Cantwell. Well, I don't want to call out the Chair, 
but I know that her father was, obviously, a great mountaineer. 
And I read his book, and saw a picture of our Chairwoman, 
biking over the mountains with her father, so I'm sure she, 
too, was influenced by that. But, that's what makes it even 
more special.
    So, thank you very much, Madam Chair.
    Senator Klobuchar. Thank you very much, Senator Cantwell.
    And I was just thinking, I know you have to leave, Mr. 
Burns, and I think we'll have a few more questions here. But, I 
wanted to thank you, first of all. And I just had one question, 
as I was thinking of this marketing--just so you understand--
this national promotion bill, the travel promotion bill, we're 
very excited about, and I hope you will, once we get the group 
gathered. Commerce, I think, is making the decision on who 
serves on it. But--it'll be a public/private partnership--it 
would be very nice, listening to the poetry of your words, if 
they consulted with you on how to do this.
    Disney put together a ``Welcome to America'' movie.
    Mr. Burns. Yes.
    Senator Klobuchar. I don't know if you've seen it.
    Mr. Burns. I have.
    Senator Klobuchar. It doesn't have their name on it, 
there's no Mickey Mouse. But, it's beautiful. And their idea is 
to have it, you know, on huge screens, in every airport that 
serves international visitors, so that, when they're waiting in 
line, they see the national parks, and they have that image, so 
it's much more welcoming. I've talked to Secretary Napolitano 
about this, just recently, and I think that that's a piece of 
it.
    The other piece of it is marketing through this public/
private partnership, and if we do this smart, and we do it 
right, like other countries have, I think we could make a huge 
impact.
    Every 1 percent we lost to that international tourism 
business--we've gone down 20 percent since 9/11--has cost us 
170,000 jobs in this country. And that's why those of us on 
this panel are so obsessed with this.
    But, my question is, as you looked at the history of the 
parks, and you saw, way back in time, did you learn anything 
about how they marketed the parks, back then? Was it just like 
Yogi Bear and Jellystone Park? I mean, what were the ways that 
the marketed? And is there anything that we can learn from 
that?
    Mr. Burns. Well, I think that what's so clear from studying 
history, on any subject, is the more things change, the more 
that there's--they're the same. There's nothing new under the 
sun. And we can take, from the example of Stephen Mather, from 
the railroad companies, which were the parks' first promoters, 
and the ``See America First'' campaign that happened, that 
there had been prime examples, throughout our history, of 
coordinated, educational events that have boosted park 
attendance, that have gotten generations of schoolchildren 
engaged with it. Some of the creation of the parks, like the 
Great Smoky Mountains National Park, had to do with a kind of 
local campaign, where kids, in the middle of the Depression, 
were raiding their piggybanks to add pennies, nickels and 
dimes, literally, to help buy the land from the loggers who 
were about to destroy the last major stand of virgin timber on 
the eastern seaboard. And we would create the park with 
extraordinary attendance, Great Smokies National Park.
    I think even a cursory look at our documentary would give 
dozens of ideas of how people went about doing this. And all 
one needs to do is just apply the lessons of one age to the new 
forms of media, that Will was speaking about, that we are in, 
today. And I don't think it's a big leap. And what I love is, 
you've got, here at this table, examples of local coordination, 
you've got State coordination, and you have a kind of national 
interest, ``We're going to do this.''
    We hope that our film will be picked up by broadcasters 
around the country, that that might interest more people, but 
we ought to be able to back that up with information. Maybe 
there are States, or there is an entity, that might help to 
promote that. I think the idea of having our borders filled 
with what we've got in here would be great. I know that people 
watch my films, waiting for jury duty, in the District, here. 
And I meet people all the time who say, ``I had jury duty, but 
I got to watch half of `Jazz' or `Baseball,' '' as they were 
sitting doing that.
    [Laughter.]
    Senator Klobuchar. This is a new marketing technique.
    [Laughter.]
    Mr. Burns. I guess.
    Senator Klobuchar. Force them----
    Mr. Burns. No one consulted me, but there seem to be 
limitless possibilities of how to do this. And I'd just----
    Senator Klobuchar. I agree.
    Mr. Burns.--if you were to focus on the life and example of 
Stephen Mather, you could be occupied for dozens of years on 
how would be the best way, the correct way, to run such a 
campaign, both at a national and a State and local----
    Senator Klobuchar. OK.
    Mr. Burns.--perspective.
    Senator Klobuchar. Well, very good, thank you. And if you 
have to leave, we understand.
    Mr. Burns. I do. And I just beg your indulgence, Madam 
Chairman, for having to do this. I had something scheduled 
before this, and I feel bad about leaving you, particularly 
with a subject so dear to my heart. But, I thank you for the 
opportunity.
    Senator Klobuchar. Thank you. Appreciate it. Thank you.
    Senator LeMieux. May I make a shameless plug for Florida--
--
    Senator Klobuchar. Well, I'll----
    Senator LeMieux.--before Mr. Burns leaves?
    Senator Klobuchar. Yes. Oh, please do.
    Senator LeMieux. Just because I may not have the 
opportunity to speak to you again. I don't know what your next 
project is, but I would like to give you a possible idea.
    [Laughter.]
    Senator LeMieux. In 3 years, we will celebrate the 500th 
anniversary of Ponce de Leon coming to Florida. And in 5 years, 
we will celebrate the 450th anniversary of the oldest city in 
America, which is St. Augustine.
    Mr. Burns. St. Augustine.
    Senator LeMieux. And we, in Florida, don't even do enough 
to have recognition of this gem, of what it is, the oldest city 
in America. And I know my friends from Virginia are always very 
big about how they have the first settlement, and--they've 
really had good propaganda on this, because the truth is, they 
don't have the first settlement; we did.
    [Laughter.]
    Senator LeMieux. So, I just wanted to leave that with you. 
That is a layperson's suggestion of maybe a possible idea for a 
future documentary.
    Mr. Burns. What is so thrilling to me, Senator, is that, if 
I were given a 1,000 years to live, I would not run out of 
topics in American history.
    [laughter].
    Senator LeMieux. Well said. Thank you very much.
    Mr. Burns. Thank you all.
    Senator Klobuchar. Very nice. Thank you. Thank you very 
much.
    I wanted to follow up on Mr. Bacher's point about this--a 
collaboration between the chamber and the parks, and how 
important that is as we look at things on a regional model. And 
I guess I'd first ask Mr. Ward, because I realize that our 
Voyageurs park there, there was some real tension on some 
issues, because we actually have people still living in the 
parks, and gradually some of that land is being sold; a 
conservation trust is buying it. But, there has been a real sea 
change; there used to be, like this, and people soon realized, 
as Mr. Bacher pointed out, that was in their best interest to 
work together, and that they're very proud of this sea change, 
with the local businesses and the park working together.
    Do you want to talk a little bit about that, and how we can 
use that as a model for a smaller park, but nevertheless, a 
model?
    Mr. Ward. Well, it's unfortunate that Mr. Burns just left, 
because I think this was touched upon in his film a great deal, 
at just about every national park, with that struggle when we 
first come in.
    Voyageurs, in terms of what you just asked me, I think, is 
best described as--we're kind of at a new birth, at this point, 
as I was kind of touching on earlier. And, you know, we are 
actually in the neighborhoods or--you know, Chamber of 
Commerce, the CVB, Rotary, those people that actually make up 
the towns that are close within our communities, our gateway 
communities, are seeing how important the park is in their 
backyard now. And I think it's going to take another generation 
before we get fully there, but some of the things that Mr. 
Shafroth touched on are occurring at Voyageurs that help us 
with that. And primarily, that's the connection that we have 
with the children in those gateway communities. Even though 
they're limited--there's not a huge population base there--that 
is who we are spending a great deal of time on. Whether it's 
through education programs, whether it's through getting them 
out in the park on a seasonal basis, whether they go out in the 
new Voyageur tour boat for one of their classroom settings, 
we're doing whatever we can to actually raise their awareness 
of the park, in their backyard, in the hopes that we are going 
to grow a new generation of constituents and supporters of the 
national park there. So.
    Senator Klobuchar. Mr. Shafroth, there's a new project 
called ``Trails & Rails'' working to advertise the parks 
through Amtrak? Do you want to explain that?
    Mr. Shafroth. I'm not familiar with that, to be honest with 
you, Senator.
    Senator Klobuchar. Well, there you go.
    Mr. Shafroth. I apologize. I--we could certainly give you 
some information----
    Senator Klobuchar. That's good.
    Mr. Ward. Actually, coming from the St. Louis, Missouri, 
area, prior to where I am now in Voyageurs, there was an active 
Rails to Trails--Trails----
    Mr. Shafroth. Rail to Trail.
    Mr. Ward. Thank you.
    And it--they would travel from park to park, and actually 
get programs. And I know that was at, kind of, its infancy 
several years ago.
    Senator Klobuchar. So, the idea is, on their iPods, these 
people that are----
    Mr. Ward. Yes.
    Senator Klobuchar.--traveling across country, they can 
download info on the park, I think, and look at it. But, it's 
just an example of using new technology.
    I just wanted to go back to what can be tension, but can 
turn into a positive thing, Mr. Bacher--before I turn it over 
to Senator LeMieux--in terms of promoting the park and just--
have you had things, where you had problems, like I know we did 
back when Voyageurs first started out? And have you been able 
to work them out and then try to look at this as a net gain for 
everyone if you work them out?
    Mr. Bacher. Well, first of all, I only have a 4-year 
history in Carlsbad, and it has been 100-percent positive, the 
whole time, because the park has been there, with their 
literature; every time we need literature, they make it 
available to us. And they have a bat flight that's--that is 
actually a free item; as the bats come in and out at night, or 
in the morning sometimes, that they allow that.
    There has really been not a lot of tension, that I know of, 
at all, between the parks and the private industry of--and the 
private citizens of my area, in Carlsbad. It has been a 
positive thing the whole time.
    Senator Klobuchar. Right. And then you went from 19,000 
visitors in 2007 to 50,000 last year, a 30,000 jump. How did 
you do that?
    Mr. Bacher. Well, we've redesigned our park; we do a lot 
more accommodations. America is traveling less, sometimes with 
an RV, so we've put in a lot----
    Senator Klobuchar. Have you seen the movie ``RV''?
    Mr. Bacher. Yes. And our park----
    Senator Klobuchar. OK, good. Well, now you know----
    Mr. Bacher.--is not like the movie RV, in the desert, with 
the pumps and the----
    Senator Klobuchar. Yes, it sort of made me think of it.
    [Laughter.]
    Mr. Bacher. So, it--the industry we see, as grandparents 
and parents, sometimes they don't have that extra 100,000 or 
half a million dollars to buy a rig. They may want to just come 
and tent, or they make want to come--we have--our--the whole 
KOA system is going to lodging. We have beautiful wood, pine 
interiors. It just is--looks like a log cabin, but they have 
all the amenities. We have Wi-Fi and, you know, flat-screen 
TVs, and air-conditioning, the whole--it's very high-tech. We 
have a restaurant, we smoke--you know, we smoke all our meats. 
I get up at 5:30 in the morning and start smoking meats, and--
--
    Senator Klobuchar. Wow.
    Mr. Bacher. So, we try and cater to what the people really 
want. It's a different buyer, it's a different client. There's 
an app for that. They----
    Senator Klobuchar. That's great.
    Mr. Bacher.--really want the high-tech stuff. If we didn't 
have Wi-Fi, they wouldn't come to our park. I mean, they have 
to have Wi-Fi, they have to have good cellular service. We 
are--you know, we have to have all that stuff. And that's the 
new buyer that--you know, the baby boomers are going to last 
for another 12 to 15 years, and our--we believe our business 
will go up. I'm hoping to have 100,000 visitors in another 4 
years. That'd be wonderful. We've--it has been so good, we've 
brought our daughter and son-in-law into the business, because 
we can't manage it anymore. It's just--you know, we went from 
10 employees, 10 years--4 years ago, to 20, and it gets bigger. 
But Generation X, we don't know. I mean, it's not a--something 
that you have to solve today. There are about 15 years before 
Generation X starts to retire, or vacation and spend the money 
that is being spent now by the baby boomers. And the baby 
boomers are a huge portion of our business, if not the biggest.
    Senator Klobuchar. Mr. Butcher? And then we'll turn over to 
Senator----
    Mr. Butcher. The question was about teaching kids about--
getting kids interested. I know, in Collier County--I think 
it's in your sixth or seventh grade--a park interpreter goes to 
the classrooms and tells the people about the park, then they 
take them out in the park. So, every schoolkid in Collier 
County gets to experience the Everglades, and get in the water, 
and get wet. And I think if every community that has a park 
have--make sure that there's money for the park to bring those 
kids into that park, would help get kids excited about it.
    And I think in Miami there's the same thing, in Everglades 
National Park, is that--I think it's fourth--is it fourth-
graders? I think it's fourth-graders--are--they have to go to 
the park. And some of them think, ``Wow, this is better than 
television.'' And some of them say ``Uh-uh, I'm not going to do 
this again.'' But, at least we're getting them out there and--
to get that experience.
    Senator Klobuchar. OK.
    Senator LeMieux?
    Senator LeMieux. Madam Chair, I want to follow up on Mr. 
Butcher's point, with Mr. Shafroth.
    I mean, it seems like there is a great ability for you to 
coordinate with the Department of Education here. We do do that 
in South Florida. I remember doing it when I was a kid, I think 
in fourth grade. And I've taken my boys out to the Everglades. 
And, you know, I have a little girl now; she's only a month 
old, so we'll see how she adapts to it. But, for little boys, 
going to the Everglades is about the neatest thing in whole 
world, because they see alligators, they see snakes; it's 
beautiful. And I think that if we can work with--between the 
different agencies of government to--I would, you know, 
encourage you to try to partner with DOE, for them to promote 
this.
    I also think--and wanted to ask you what kind of work you 
do with U.S. Fish and Wildlife Service. You know, are they 
promoting tourism, you know, in their work? They're--certainly 
have a broad swath of area that they cover. So, maybe you could 
speak to that, Mr. Shafroth.
    Mr. Shafroth. Sure.
    Madam Chair, Senator LeMieux, a couple of things. You're 
right, we are in a conversation right now with the Department 
of Education about how we can work together to promote 
environmental education at our national parks, at our 555 
national wildlife refuges, BLM lands, and other lands that we 
manage. Fully 20 percent of our Nation's lands are under the 
Department of the Interior. So, you're--you make a good point. 
It's not just national parks here, there's a much a broader 
swath--Forest Service is not represented here, but they have an 
important contribution to make, as well.
    I did want to mention that the Park Service does work very 
closely with the National Park Foundation on the creation of, 
sort of, a virtual classroom. And they have these periodic 
stagings that they have in national parks; most recently, one 
they had in Great Smokies, where 3 million young people in 
schools around the country were participating, through a live 
broadcast of an activity that was going on in Great Smokies.
    And so, it's difficult--you know, it's difficult to get 
every kid out to every park; and yet, this is an opportunity 
for them to learn about this park, and the natural flora and 
fauna of this area.
    Right now, this week, in Biscayne Bay, in your State, 
there's something called ``BioBlitz'' going on, where hundreds 
of people are participating in an effort to gain information 
about the biology of the Biscayne Bay. And it's a big event, 
big promotion. We hope to use that as a way, again, to educate 
citizens in Florida, in South Florida, about the value and 
importance of the ecosystem in Biscayne Bay.
    So, you make a very good point, the Fish and Wildlife 
Service does--has similar relationships with friends groups 
throughout the refuge system, but I think--I take it that there 
is a limitation on their ability to actually go out and 
formally promote and advertise their activities, but it's 
something we need to figure out how to do better.
    Senator LeMieux. Well I think that's something that this 
committee may address, is that limitation. And we can take a 
look at that and----
    Mr. Shafroth. Yes.
    Senator LeMieux.--see that we can put some ability of these 
parks to advertise. And I think that Mr. Butcher's brought up a 
lot of good points, too, about how it should be done, so that 
there's local input by the superintendents of these park, 
because they're going to know best how to work with local folks 
to capture that image.
    While we have you here, too, I wanted to, just by 
curiosity, ask you, Mr. Shafroth, is there any plans for any 
new national parks?
    Mr. Shafroth. Well, the Park Service has conducted a number 
of studies on national park--potential national park units. And 
I don't know what the number of that is--maybe somebody here 
could help with that--but, a whole host of them that you all, 
in the Congress, have authorized them to do. And I think they 
would be there to await action by Congress, because Congress is 
the only body--entity that can create a new national park, or a 
new unit of National Park System. So----
    Senator LeMieux. Do you propose a list to us of what you 
think are the top five? Or, how does it work?
    Mr. Shafroth. Those are, sort of, incrementally proposed, 
and then I think they're out, sort of in a holding pattern. 
We're certainly--you know, the new administration has expressed 
interest in the potential for some new units, but they were not 
prepared to go formal, in terms of our presentation yet. You 
may hear from John Jarvis, our Director of the Park Service, on 
that soon.
    Senator LeMieux. OK.
    Thank you, Madam Chair.
    Senator Klobuchar. Well, I want to thank all of you.
    And I take away from this hearing--as we think about the 
parks, vis-a-vis Congress, I think it's always--what Senator 
Cantwell was talking about, ``Well, can we get an interpretive 
center? Can we get this funded?'' It tends to be more focused 
on those kinds of issues. And I think having our Tourism 
Subcommittee--while we may not have direct jurisdiction over 
the parks, we can pretend we do. Right, Senator LeMieux?
    [Laughter.]
    Senator Klobuchar. Having us look at it in a different way, 
in terms of the function of those parks for jobs and for 
education, learning experiences, and how they can be a major 
part of driving this economy, I think, is very important, and I 
think we should--I know Senator LeMieux and I are very focused 
on looking at it that way, and talking to some of our 
colleagues. We'll look at what those restrictions are, but also 
making sure that, when we do that international marketing, that 
the parks are a part of that, and then looking at how we can do 
it on a local level, as well, because I think there's just so 
much more that we could do here, in terms of selling our parks 
in a very positive way, for the best of all reasons, as we 
know, for international visitors and others in our country. And 
I think it could be a very good thing.
    So, that's what I come away--we just haven't--I don't think 
we usually talk about the parks in this way, and I think that 
it's time that we do, because they're a treasure that we want 
to share with others, and create some jobs in the meantime.
    So, I want to thank all of you for being here. It has been 
a very interesting hearing. And keep up the good work.
    Thank you.
    The hearing is adjourned.
    [Whereupon, at 11:33 a.m., the hearing was adjourned.]

                            A P P E N D I X

      Written Questions Submitted by Hon. Frank R. Lautenberg to 
                             Will Shafroth

    Question 1. What steps, if any, is the National Park Service taking 
to understand the impact of the new National Park Service firearms law 
on visitation and tourism to the parks? If visitation falters, what 
action will the Department of the Interior take to ensure domestic and 
international visitors that their families will be safe in America's 
national parks?
    [The witness did not respond.]

    Question 2. How will the Administration record and report firearm 
incidents, such as poaching, intimidation of visitors or park rangers, 
or the discharge of a weapon, that may take place and impact park based 
tourism? Please explain how DOI plans to capture National Park System 
wide incidents relating to the new law, so that lawmakers can know 
whether future action may be warranted on this important issue.
    [The witness did not respond.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
